<html>
<title> - INVESTING IN HOMELAND SECURITY: STREAMLINING AND ENHANCING HOMELAND SECURITY GRANT PROGRAMS</title>
<body><pre>[Senate Hearing 108-84]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-84

  INVESTING IN HOMELAND SECURITY: STREAMLINING AND ENHANCING HOMELAND 
                        SECURITY GRANT PROGRAMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs



88-245              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
              Tim Raducha-Grace, Professional Staff Member
     Joyce Rechtschaffen, Minority Staff Director and Chief Counsel
        Michael A. Alexander, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Levin................................................     3
    Senator Stevens..............................................     7
    Senator Akaka................................................     8
    Senator Carper...............................................     9
    Senator Voinovich............................................    12
    Senator Fitzgerald...........................................    16
    Senator Pryor................................................    24
    Senator Specter..............................................    31
Prepared statement:
    Senator Lieberman............................................    41

                                WITNESS

Hon. Tom Ridge, Secretary, Department of Homeland Security:
    Testimony....................................................    14
    Prepared Statement...........................................    43
    GPost-hearing qestions for the Record submitted to the Hon. 
  Tom Ridge from:
      Chairman Collins...........................................    47
      Senator Carper.............................................    55
      Senator Levin..............................................    59
      Senator Lieberman..........................................    63
      Senator Voinovich..........................................    77

                                Appendix

Chart entitled ``Tangled Web of Federal Homeland Security Grant 
  Programs''.....................................................    78
Chart entitled ``12 Steps for a State to Receive Homeland 
  Security Dollars''.............................................    79
Hamilton County Fire Chiefs and Sycamore Township prepared 
  statement......................................................    80

 
                    INVESTING IN HOMELAND SECURITY:
                       STREAMLINING AND ENHANCING
                    HOMELAND SECURITY GRANT PROGRAMS

                              ----------                              


                         THURSDAY, MAY 1, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Levin, Stevens, Voinovich, 
Specter, Fitzgerald, Akaka, Carper, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. Good morning. The Committee will come to 
order. Today, the Governmental Affairs Committee continues our 
efforts to streamline and strengthen homeland security grant 
programs for States, communities, and first responders.
    I want to start by welcoming Secretary Tom Ridge, who will 
discuss the Department of Homeland Security's ongoing 
challenges in providing the resources needed to protect our 
homeland.
    Mr. Secretary, let me start this morning by commending you 
for your leadership in building a more effective homeland 
security partnership with our States, localities, and first 
responders. But in some ways, I believe that Congress' lack of 
guidance has left you with one hand tied behind your back. 
Despite these constraints, you are doing a great job, but we 
can and must do more to ensure that those who are on the front 
lines receive the information, equipment, training, and 
planning they require to be effective.
    The Homeland Security Act provides a framework to establish 
your new Department, yet the law contains virtually no guidance 
on how the Department is to assist those at the State and local 
level with their homeland security needs. Congress wrote a 187-
page law creating the new Department, yet only a single 
paragraph describes grant programs for first responders. As a 
result, the Department is allocating billions of dollars to 
States and localities with very little guidance from Congress 
as to how such decisions should be made.
    As with so many other important issues, much of the front-
line responsibility for homeland security has fallen squarely 
on the shoulders of our State and local officials and first 
responders. Communities across America have risen to this 
challenge and have developed scores of innovative homeland 
security strategies.
    Instead of encouraging these new ideas, however, the 
tangled web of Federal Homeland Security Grant Programs is 
stifling State and local innovation.\1\ Instead of providing a 
foundation on which States and localities can build homeland 
security strategies tailored to specific risks, Federal 
programs present States and communities with a mountain of 
paperwork. Instead of giving communities the flexibility that 
they need, State and local officials face a one-size-fits-all 
grant structure.
---------------------------------------------------------------------------
    \1\ Chart entitled ``Tangled Web of Federal Homeland Security Grant 
Programs,'' submitted by Senator Collins appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    Mr. Secretary, in my judgment, the current homeland 
security grant program structure simply doesn't work as well as 
it should. Congress should give you a map to replace the maze 
of homeland security programs with a straight path, to topple 
the mountain of paperwork, and to provide States and 
communities the flexibility that they need to be effective.
    Today, I am announcing principles for legislation that I 
will be introducing in coming weeks to streamline and enhance 
homeland security grant programs. This outline is based on 
extensive input from State and local officials and first 
responders and includes several key principles.
    First, my legislation will topple the mountain of paperwork 
by eliminating duplicative homeland security application and 
planning requirements that States and localities are now 
required to complete as a condition of receiving Federal funds. 
As this chart illustrates,\2\ on my right, a State must engage 
in a 12-step odyssey to obtain funding from a single homeland 
security grant program, and this is just one of several 
homeland security grant programs to which a State, community, 
police, or fire department can apply.
---------------------------------------------------------------------------
    \2\ Chart entitled ``12 Steps for a State to Receive Homeland 
Security Dollars'' submitted by Senator Collins appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    Second, my legislation would allow flexibility in the use 
of homeland security funds. Instead of a one-size-fits-all 
formula determining how homeland security dollars must be 
allocated, the legislation will allow State and local officials 
to decide how to spend Federal dollars to meet their highest 
priority needs.
    Third, my legislation will make it easier to apply for 
grants by moving toward one-stop shopping within the Department 
for accessing homeland security dollars in a direct and timely 
fashion. A single source within the Department will provide 
States, communities, and first responders with information on 
grant programs, both within and outside of the Department.
    Fourth, the bill will help to coordinate the wide range of 
grant programs that provide homeland security funds for 
planning, preparedness, and response capabilities. Federal 
programs inside and outside the Department of Homeland Security 
provide much-needed support to ensure basic level of equipment 
and training among first responders, yet they often lack even 
basic coordination. The legislation I am proposing will 
coordinate these programs to avoid duplication, ensure that a 
broad spectrum of needs are being met, and maximize the return 
on the taxpayers' investment. We simply cannot afford to spend 
Federal dollars in a duplicative or haphazard manner. The risks 
are simply too great.
    Fifth, the legislation will promote a community-based 
approach to homeland security funding. It will ensure that 
local officials and first responders have a seat at the table 
in the homeland security planning process and that they can 
access resources in an efficient manner.
    Sixth, we must allocate homeland security dollars according 
to need, while at the same time ensuring that each and every 
State receives a reasonable share of funds. Currently, the 
Department is allocating billions of dollars with little 
guidance from Congress.
    Seventh and finally, this legislation will not reinvent the 
wheel. It will recognize the importance of building on existing 
successful programs, such as the popular and effective FIRE 
Act.
    All States face security challenges, including our Nation's 
rural and less populous States. Maine, for example, was the 
starting point for two of the September 11 hijackers and is 
home to one of New England's busiest seaports. Unique 
challenges also face smaller States, such as Delaware, which 
must protect a major military base and an international 
speedway. In other words, the size of the State does not 
necessarily determine the seriousness of the threat.
    We don't need to look far into our history to witness the 
tragic events that can occur in even relatively rural States. 
Just consider Oklahoma City, the highest casualty domestic 
terrorist event prior to September 11.
    We must engage in a thoughtful dialogue about how best to 
distribute homeland security funds or we may end up leaving 
some of our communities more vulnerable to attack because we 
inadequately assessed the risk.
    Again, Mr. Secretary, let me close by commending you for 
your efforts to simplify the grant process and make it easier 
for States, communities, and first responders to access 
funding. But Congress has provided you with an incomplete tool 
box. You need more to build an effective homeland security 
partnership with States, localities, and first responders, and 
I know that the Members of this Committee are committed to 
giving you the tools that you need. We look forward to working 
with you on legislation to build a stronger and more effective 
homeland security partnership in the months and years ahead.
    At this point, I would like to turn to Senator Levin for 
his opening remarks.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Madam Chairman, and let 
me join you in welcoming Secretary Ridge to this hearing and 
join you also in commending him for the extremely great effort 
that he is making to put together a Homeland Security 
Department which reflects the needs of this country. I think 
you are doing a fine job and I join in that commendation.
    We obviously have a number of concerns which we want to 
raise with you today. The programs and operations of the 
Department of Homeland Security continue to be unclear to our 
people and to our local governments. The coordination or lack 
thereof between your agency and State and local governments is 
troubling. The interaction with State and local governments is 
still confusing, unclear, and of great concern to us.
    There are other issues, too, which I want to raise with you 
during our question period, particularly as to the relationship 
between your Directorate for Information Analysis and 
Infrastructure Protection and the CIA entities that now exist. 
There are now two entities in the CIA, the Counterterrorist 
Center and the new one which was apparently just announced 
yesterday, Terrorist Threat Integration Center (TTIC). So you 
have these two entities that are engaged in analysis of 
intelligence information, now both located apparently at the 
CIA, and how that is going to relate to your directorate, which 
was the place where some of the dots were going to be 
connected, at least, is very unclear and I think we need you to 
give us some guidance on that, as to what the intent is.
    There are also other issues besides the one that is the 
focus of today's hearing that I want to raise with you, 
including access to information under the Freedom of 
Information Act and how that is going to work and what 
information would be protected from public scrutiny by 
corporations just simply filing with your agency information 
and thereby protecting themselves from the corrective remedies 
that might otherwise be indicated or from public access to that 
information. That is a whole issue which we kind of ducked at 
the time that this agency was put into place.
    I don't want to repeat all of the concerns which our 
Chairman has just raised, but I will just simply highlight a 
couple of them that I hear a lot about when I go back to 
Michigan.
    I hear many complaints about how the Department issues 
grants and allocates funds to State and local governments and 
the first responders, like the police and the fire fighters. 
The first issue, which I hope you will address, is the overall 
budget issue. According to my figures, the Department of 
Homeland Security funds for first responders, when you add the 
Office of Domestic Preparedness allocation in 2004 and the fire 
grant program, which is not given any money in 2004, you have 
actually less money, the way we add it up, for first responders 
in your budget for fiscal year 2004 than we had in 2003, and I 
wish you would address that issue. The total is $3.5 billion 
for first responders in 2004, roughly, and $4 billion in 2003 
when you put those two programs together, the Office of 
Domestic Preparedness and the fire grant program.
    There is still no 800 number where people can call just to 
get information, as far as I know. We had gone into that issue 
at the time we were considering the creation of your 
Department. There is still no one-stop grant process for State 
and local officials and there is the whole host of budget 
questions which were raised. The administration is proposing to 
basically drop the COPS program to decrease the Byrne grants 
and to eliminate or almost eliminate the local law enforcement 
block grant program, and that is not made up for, as far as we 
can see, in the budget dollars that have been proposed for your 
agency.
    So those are the big picture budget items that we hope you 
will address, as well as for first responders, as well as some 
of the issues which relate to the grant application process, 
whether we can't have a one-stop grant process where people can 
go to one place or call one number to get information relative 
to what is available to local governments.
    We then have all the formula issues, which I think to some 
extent, at least, are based on legislative decision, but where 
you have made some recommendations which we would like to hear 
as to how these funds can be more fairly apportioned to where 
the greatest risks are. Some of those formulas make no sense to 
me. When we have flat-out minimums guaranteed, for instance, 
that is not based on threat. It should be based on threat. I 
understand you have some recommendations in that area, because 
I agree that we ought to put our funds where the greatest 
threats are and I don't think that is the case where we have 
fixed formulas that go to States or to localities based on 
anything other than what the threat is and what their 
infrastructure vulnerabilities are.
    So you have got a lot of questions before you. I know there 
are a lot of challenges on your plate. And again, I just want 
to add my thanks for all the good work of you and your staff in 
attempting to address those challenges.
    Chairman Collins. Thank you, Senator Levin. Senator 
Stevens.
    [The prepared statement of Senator Levin follows:]

                  PREPARED STATEMENT OF SENATOR LEVIN

    The Department of Homeland Security (DHS) is still a new agency but 
pressing questions about how it should function, how it should 
coordinate with other Federal agencies, and how it should interact with 
State and local governments are issues that Members of this Committee 
have now been raising for over a year. New questions are piling up, 
while many old issues remain unresolved. It is past time to get 
definite answers to some of these questions and to clarify how this 
Department is going to be set up and run to ensure the safety of our 
country.
    As the key oversight Committee for the new Department, our job is 
to identify key issues and help with the solutions. One of the key 
issues that I have been focusing on for the past year involves 
intelligence--improving our ability to map terrorist threats and 
prevent terrorist acts. The 9-11 tragedy exposed troubling gaps and 
weaknesses in our intelligence efforts and made it clear we need to 
improve the Federal Government's ability to connect the dots, identify 
threats, and stop terrorism.
    Simply creating a new Department has not cured our intelligence 
weaknesses. In fact, the intelligence situation may have been muddled, 
not improved, by the creation of the DHS which appears to be causing 
new confusion over who has what intelligence responsibilities and who 
can be held accountable. The DHS will have a new intelligence capacity 
that will map threats and try to prevent future terrorist attacks. In 
addition to this, the administration recently announced the creation of 
a new intelligence entity called the Terrorist Threat Integration 
Center or TTIC. But frankly, I'm not convinced that anyone really 
understands what the TTIC will look like, what its mission will be, or 
how it will work with other intelligence agencies.
    We've been told, for example, that the TTIC is supposed to be a 
gathering point for all sources of intelligence on terrorism so that 
information can be analyzed and distributed. But that is also the 
mission of the Counter Terrorist Center in the Central Intelligence 
Agency. Today, the Counter Terrorist Center or CTC receives 17,000 
pieces of intelligence a month and produces about 300 outgoing 
intelligence products a month. All of the key agencies sit at the CTC 
table. But the same agencies are supposed to also participate in the 
TTIC. The question this Committee must ask is what is the expected 
relationship between the CTC and the TTIC?
    What are their respective intelligence roles and responsibilities? 
Will they share information and resources to minimize duplication and 
ensure effective communication? Or, by asking both entities to perform 
the same or similar tasks, will we diffuse responsibility, waste 
resources, and increase the risk of important information slipping 
through the cracks?
    In addition to defining the general relationship between the TTIC 
and CTC, it is critical to know which agency has primary responsibility 
for gathering, analyzing and distributing foreign intelligence to 
ensure this information is acted on. The statute failed to assign clear 
responsibility for handling foreign intelligence, which could be lodged 
in at least three places: The DDS, the TTIC, or the CTC. I have been 
talking about this issue for a year and a half, and it has yet to be 
clarified.
    On January 17, I asked Secretary Ridge whether the principle 
responsibility to analyze foreign intelligence would remain at the CTC. 
He said yes. At a hearing on February 26, I asked Deputy Secretary 
Gordon England the same question, and he also named the CTC. On 
February 26, I asked other administration officials with responsibility 
for intelligence matters to provide a written statement naming the 
agencies with primary responsibility for the analysis of foreign 
intelligence and domestic intelligence, and Chairman Collins seconded 
that request. It's more than 2 months later, yet nothing has been 
placed in writing. Given the size of the intelligence community, the 
potential for confusion, the importance of this matter, and the need 
for accountability, assigning the CTC primary responsibility for 
handling foreign intelligence needs to be placed in writing, and it's 
unclear why that has yet to happen.
    A second critical issue involves the public's right to know what 
the new Department is doing. When we first started the process of 
creating a Department of Homeland Security, a key concern was how to 
strengthen our national security without abandoning public oversight 
and the openness that a free society requires to function. It is 
frustrating to have to remind people that we reached a bipartisan 
compromise on this subject last summer--now almost 1 year ago--
balancing the two concerns in a provision clarifying how the Freedom of 
Information Act would apply to the Homeland Security Act. But that 
bipartisan compromise, which also enjoyed administration support at the 
time, was dropped from the final bill in favor of much more restrictive 
language that over 50 public interest groups have been protesting ever 
since. To resolve this issue, Senators Leahy, Lieberman, Byrd and I 
have reintroduced the compromise as S. 609, the Restore FOIA bill. The 
Department also recently issued proposed rules on the subject, but that 
effort appears to have only further confused the issue and further 
inflamed public interest groups who believe the public has a right to 
reasonable amounts of information affecting their security, health, and 
safety. This issue continues to fester.
    A third critical issue that is only beginning to receive attention 
involves the role of the new Department in combating money laundering. 
Terrorists launder money to finance their schemes. Some terrorists also 
work with other criminals, such as drug traffickers, to obtain funds 
and other assistance to commit terrorist acts. For this reason, it is 
crucial to track down money launderers of all types around the globe 
and shut down their operations. It is also crucial to ensure that 
terrorists are not using our own financial systems against us, by 
moving funds through U.S. bank or securities accounts or misusing our 
trade laws to launder dirty money. The new Department has acquired some 
of the leading Federal experts on money laundering, including the 
Customs anti-money laundering unit known as Greenquest, which plays a 
key role in stopping terrorist financing and other money laundering 
efforts. But so far, it is unclear who at the new Department is in 
charge of the anti-money laundering mission and how the new Department 
is plugged into government-wide efforts to battle this problem. Money 
laundering is too important to get lost in the shuffle, and it needs to 
become much more of a DHS priority.
    That brings me to a final issue which is the focus of this hearing: 
How the new Department is working with State and local governments to 
fight terrorism. Complaints are increasing as to how the Department is 
issuing grants and allocating funds to State and local governments and 
first responders like fire fighters and the police. There is still no 
800 number for grant information and still no one-stop grant process 
for State and local officials. Increases in DHS funds are apparently 
being offset by decreases in other Federal grants programs to the same 
units. For example, look at three grant programs for local police: COPS 
was funded in 2003 at $929 million, but in 2004 the administration 
requested just $164 million, an 82 percent decrease; the Byrne Grants 
were funded at $651 million last year, but in 2004 the administration 
requested zero; and the Local Law Enforcement Block Grant Program was 
funded at $400 million last year, but in 2004 the administration 
requested zero dollars.
    I was also extremely surprised and disappointed that when DHS 
announced recent grant awards to high-threat urban areas, absolutely no 
funds were allocated to Detroit. Detroit is the eighth largest 
metropolitan area in the country, it is home to the largest U.S.-
Canadian border crossing in the Nation, it has a diverse immigrant 
population, and it has been the site of numerous recent investigations 
and prosecutions related to terrorism. Excluding Detroit from the 
initial round of funding for high-threat urban areas is a flat out 
mistake if homeland security is to be strengthened. It also indicates 
the current funding process is flawed, and that better criteria are 
needed for awarding funds to high-threat urban areas. There are also 
signs that key funding formulas need adjusting. For example, Wyoming 
now gets more funds per capita than Michigan for first responders, even 
though Michigan has 20 times Wyoming's population. This anomaly 
apparently results from the Office of Domestic Preparedness grant 
formula, which has a mandatory State minimum that many experts believe 
is set too high. Secretary Ridge has indicated that he would support 
adjusting at least some of the funding formulas, and I look forward to 
working with him to better target funds to match the country's security 
needs.
    There is a lot of work that needs to be done, and I hope this 
Department will work with us in resolving some of the long-standing 
issues as well as addressing the new ones.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you very much, Madam Chairman. I am 
pleased to be here with Secretary Ridge. As a matter of fact, 
we have an Appropriations hearing going on right at this time 
on homeland security. I will be going over there from here.
    I am here for two reasons. One, I do really sincerely thank 
the Secretary for what he is doing and his responsiveness to 
our Congressional action so far. But I want to make this point. 
Legislation concerning homeland security should originate in 
this Committee and not on the floor of the Senate in 
appropriations bills, and I intend to oppose any such 
amendments now on appropriations bills to deal with the basic 
laws concerning homeland security.
    We have got to get back to the point where legislation is 
considered legislation. I think we are through the emergency 
phase after September 11, but we are setting the parameters for 
the relationships between the Federal Government and State and 
local governments on homeland security. I do not believe that 
all homeland security expenses, and costs should be 
underwritten by the Federal taxpayer and we have to define, in 
detail, in the legislation that comes from your committees and 
those in the House what that relationship should be.
    Clearly, we already have a substantial responsibility in 
supporting the National Guards of each individual State. Those 
are people involved and who have been involved in homeland 
security for years.
    There is a hope and a desire in every community in the 
country that we will find Federal money to assist in meeting 
the newly perceived requirements for homeland security. I, 
myself, have had one representative of a small area in my State 
come to tell me that I should help him get money for a new fire 
truck. When we looked into it, they never have had a fire 
truck. There is a limit to the amount of money that is going to 
be made available for homeland security, including first 
responders, but this Committee and your colleagues in the House 
should help us define, and Congress with the President's 
approval should define what is that relationship. It should not 
occur on each individual appropriations bill that comes up.
    So I hope that you will join us in trying to decide that 
the authorizing committees are going to set those parameters. 
We will do our best to find the money within those parameters 
after you have established them. But I do believe it is time 
for us to come to agreement and to reduce the expectation of 
unlimited assistance from the Federal Government for homeland 
security that exists in State and local governments today. 
Thank you very much.
    Chairman Collins. Thank you, Senator Stevens.
    We have now begun a 15-minute vote. I am going to call on 
Senator Akaka. I am going to go vote. I would ask Senator Levin 
if he would call on my colleagues in my absence. I will get 
back as soon as I can, and if the time expires, we can take a 
short recess. Thank you.
    Senator Levin. I would be happy to do that.
    Chairman Collins. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I join 
you and my colleagues in welcoming Secretary Ridge to this 
hearing.
    Secretary Ridge, I share my colleagues' concerns that since 
September 11, local governments have not received adequate 
funding to help them prepare for the possibility of new 
terrorist attacks. Just last month, this Committee heard from 
first responders who testified that sufficient funding for 
homeland security is still not reaching the local level. They 
told us that even when Federal assistance is received, 
restrictions prevent them from using grant funding for their 
specific needs.
    It is a huge challenge and we need to address this 
challenge. First responder funding is most effective when it is 
utilized for the specific needs of a community. For that 
reason, I am a cosponsor of Senator Collins' legislation which 
provides States and localities with much-needed flexibility to 
use unspent grant funding.
    For example, an estimated 1.4 million people, including 
U.S. service members and tourists, are in Hawaii any given day. 
Formulas for first responder grants, however, are based on 
States' permanent population. As a result, Hawaii is 
responsible for protecting a significantly higher population 
than is reflected in grant allocation formulas.
    Like other States, in the event of a terrorist attack, 
Hawaii would rely on support from Federal, State, and local 
officials. However, unlike most States, external assistance 
from the U.S. mainland is not immediately available. Hawaii's 
geographic location makes mutual aid for mainland States 
impractical for that reason. Hawaii's National Guard, State, 
and counter-response agencies require special consideration for 
additional homeland security funding to attain a comparable 
level of training and equipment to respond to a weapon of mass 
destruction attack.
    We must also maximize existing State capabilities which are 
so important to our homeland security. As an example, the State 
of Hawaii has an advanced database called the Criminal Justice 
Information System, or CJIS, which contains information which 
may be invaluable in preventing a terrorist attack. Currently, 
TSA is not accessing this information and I believe this is a 
mistake. We should promote better integration and sharing of 
possible terrorist information, which is the subject of a just-
released GAO report.
    Secretary Ridge, I thank you for being here. As you and I 
have discussed before, funding for first responders is crucial 
to Hawaii given its strategic and geographic location, and I 
really do appreciate your willingness to work with me and our 
State officials and thank you so much for what you are doing 
for our country in your position now. Thank you very much, Mr. 
Secretary.
    Senator Levin [presiding.] Thank you, Senator Akaka. 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Secretary Ridge, welcome today. 
I don't think I have ever called you Secretary Ridge, Governor. 
It is nice to have you before us again.
    Secretary Ridge. Thanks.
    Senator Carper. I want to say thanks very much for joining 
us last night at the Fire Services Caucus dinner, where you hit 
not one home run, but maybe a couple with some men on base.
    The Chairman is gone. I want to thank her for holding the 
hearing, and her staff and our staffs for putting it together 
and certainly to you for being with us. We look forward to 
working with Senator Collins, Senator Lieberman, and others on 
trying to figure out how we can take this important program and 
make it better.
    I like to say that the road to improvement is always under 
construction and this road to improvement is going to be under 
construction for some time and we look forward to working with 
you on that.
    Last month, we had a hearing where, wonder of wonders, 
everybody agreed. Sometimes, I am sure you recall from the time 
that you served in the House, sometimes you have a hearing 
where all the witnesses disagree and it is hard to find a 
common thread. Last month, we had four local first responders--
one of them was a police chief from Dover, Delaware--and they 
agreed on just about everything. They have been dealing with a 
number of their new homeland security responsibilities over the 
past 18 months or so and they told us that in doing their jobs 
since September 11, that they have been operating in what they 
described as an intelligence vacuum. They said they often 
learned about increases in our Nation's terrorism threat levels 
not from the FBI or from our new Department but from the media.
    Again, any legislation authorizing a new Federal first 
responder aid program should streamline the grant approval 
process so that States and localities get the resources that 
they need faster, and I think we would all agree with that. It 
should also improve coordination between the Department of 
Homeland Security and States and local first responders. I 
would like to see more officials from States and localities 
given access to threat information so that they can deploy 
their scarce resources in the ways that they believe best 
protect their own citizens.
    I would also like to encourage the Department to begin 
offering States and localities technical assistance in putting 
together response plans and needs assessments so that emergency 
planners can better match what they are doing on the ground 
with what the intelligence community and the Federal experts 
think that is needed.
    This Committee would also, in my judgment, do well to 
consider creating a separate first responder grant program for 
localities. It is something that the Dover Police Chief and the 
other witnesses from our hearing last month were calling for. 
And while it is important that localities coordinate their 
emergency planning and equipment purchases with States, some, 
and especially in the larger urban areas, have special needs 
that might not be reflected in State plans.
    A new grant program for localities could also be used to 
encourage interstate coordination in metropolitan areas, such 
as those around Philadelphia, which include not only 
Southeastern Pennsylvania, but Southern New Jersey and the 
first State, the State of Delaware.
    With all that said, this Committee's top priority should be 
to come up with a better formula for distributing first 
responder aid to States. The current formula is largely based 
on population and it shortchanges less populous States like my 
State that are home to some important critical infrastructure. 
Senator Collins actually mentioned a couple of them. Dover Air 
Force Base is one. We have the Northeast Corridor with all that 
it involves. Even though we don't have a lot of people, we have 
a fair amount of threat for a State as small as ours is.
    I understand the need to give the larger States, especially 
those with densely populated urban areas, enough money to 
protect their larger populations. No State, though, should be 
less safe than our neighbors simply because we happen to have a 
relatively small population.
    The Federal Government should be working to bring every 
State and locality to the point where they are able to respond 
effectively to any potential threat. By distributing first 
responder aid to States based largely on population, I fear we 
will fail to do this.
    The current formula for distributing first responder aid 
ignores, as I said earlier, the fact that we do have a lot of 
unusual threats because of the Dover Air Force Base. About a 
third of the military airlift cargo material from the 
Afghanistan War went through the Dover Air Force Base, and a 
whole lot of it is going through that base again for Iraq and 
for the Middle East.
    I want to applaud your recent call, Governor Ridge, for a 
new formula that gives greater weight to risk and I urge you 
and our colleagues on this Committee to recognize that all 
States, large and small, must take certain steps and make 
certain expenditures in order to be minimally prepared for a 
major attack.
    When this Committee worked last year under Senator 
Lieberman's leadership to create the Department of Homeland 
Security, I think all of our colleagues hoped that what we are 
setting up would help the Federal Government to be better able 
to prevent and respond to terrorist attacks. No matter how well 
you do your work, and your staff and team do their work, at the 
Federal level, we are not going to be much safer than we were 
before September 11 unless our first responders are better 
prepared to do their work on the local level.
    While homeland security should certainly be a shared 
responsibility, it is vitally important that the Federal 
Government does its part to provide each State with enough 
first responder aid to ensure that our citizens are adequately 
protected.
    I would just add as a P.S.--Senator Collins mentioned 
this--she and I have introduced legislation that is designed to 
provide some greater flexibility to the State and local level. 
We don't mandate redistribution, but we do provide the local 
folks with some greater discretion. I would urge you to take a 
look at that and hope you find some merit in it and perhaps can 
support it. Thank you, Mr. Secretary.
    [The prepared statement of Senator Carper follows:]

                  OPENING STATEMENT OF SENATOR CARPER

    Thank you, Madam Chairman. I'd like to begin by thanking you for 
holding this series of hearings on the Federal first responder aid 
program. I look forward to working with you, Senator Lieberman and the 
rest of the Committee on taking what we are learning here and finding a 
way to make this important program work better. In my view, there is 
much room for improvement.
    This Committee heard last month from four local first responders 
from different parts of the country, including Dover, Delaware Police 
Chief Jeffrey Horvath. All of them have been dealing with a number of 
new homeland security responsibilities over the past 2 years but have 
received little to no Federal aid. All of them have also been doing 
their jobs since September 11, 2001 in an intelligence vacuum, often 
learning about increases in the Nation's terrorism threat level from 
the media before they hear it from the FBI or the Department of 
Homeland Security.
    I believe any legislation authorizing a new Federal first responder 
aid program should streamline the grant approval process so that States 
and localities get the resources they need faster. It should also 
improve coordination between the Department of Homeland Security and 
State and local first responders. I, for one, would like to see more 
officials from States and localities given access to threat information 
so that they can better deploy their scarce resources. I would also 
like to see the Department of Homeland begin offering States and 
localities technical assistance in putting together needs assessments 
and response plans so that emergency planners can better match what 
they're doing on the ground with what they need to be doing to protect 
their citizens.
    This Committee would also do well to consider creating a new first 
responder grant program for localities, something Chief Horvath and the 
other witnesses from the last hearing called for. While it is important 
that localities coordinate their emergency planning and equipment 
purchases with States, some, especially larger urban areas, have 
special needs that might not be reflected in State plans. A new grant 
program for localities could also be used to encourage interstate 
coordination in metropolitan areas such as the area around Philadelphia 
encompassing southeastern Pennsylvania, northern Delaware and southern 
New Jersey. If a major incident were to occur in Philadelphia, first 
responders from neighboring jurisdictions in Delaware and New Jersey 
would certainly be called on to assist their colleagues in the city. 
The current first responder aid program, however, does not recognize 
that fact that planning and coordination does not stop at State 
borders.
    All that said, this Committee's top priority should be to come up 
with a better formula for distributing first responder aid to States. 
The current formula, unfortunately is based largely on population so 
shortchanges less populous States like Delaware that are home to 
important critical infrastructure or that are situated in more 
dangerous, densely-populated parts of the country.
    I understand the need to give larger States, especially those with 
densely populated urban areas, enough money to protect their larger 
populations. No State, however, should be less safe than its neighbors 
simply because it has a smaller population. The Federal Government 
should be working to bring every State and locality to the point where 
they are capable of responding effectively to any potential threat. By 
distributing first responder aid to States based on population, 
however, I fear we will fail to do this.
    The current formula for distributing first responder aid ignores 
the fact that Delaware, small in population though it is, is located in 
the Northeast midway between New York and Washington. It ignores the 
fact that Delaware is home to a major port, oil refineries and chemical 
plants and everyday hosts scores of ships, trains and trucks as they 
make their way to destinations up and down the East Coast. It also 
ignores the fact Delaware is home to the Dover Air Force Base, a 
facility that played a crucial role in the war in Iraq.
    I applaud Secretary Ridge's recent calls for a new formula that 
gives greater weight to risk. I urge him and my colleagues on this 
Committee to recognize, however, that all States, large and small, must 
take certain steps and make certain expenditures in order to be even 
minimally prepared for a major attack.
    When this Committee worked last year under Senator Lieberman's 
leadership to create the Department of Homeland Security, I think all 
of my colleagues hoped that what we were setting up would help the 
Federal Government be better able to prevent and respond to terrorist 
attack. No matter how well Secretary Ridge does his work on the Federal 
level, however, we will not be much safer than we were on September 10, 
2001 unless our first responders are better prepared to do their work 
on the local level.
    While homeland security should certainly be a shared 
responsibility, it is vitally important that the Federal Government 
does its part to provide each State with enough first responder aid to 
ensure that its citizens are adequately protected.

    Secretary Ridge. Thank you.
    Senator Levin. Thank you, Senator Carper.
    I think we will now take a recess until Senator Collins 
returns, and I assume she will be back any minute.
    [Recess.]
    Chairman Collins [presiding.] The Committee will come to 
order. I would now like to call on Senator Voinovich for his 
opening remarks.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning. Thank you, Madam Chairman. 
As you know, I have a deep, abiding passion for improving 
intergovernmental relationships, and when it comes to investing 
in homeland security, failure is not an option. Therefore, I 
commend you for investing your time and energy and resources to 
investigate, evaluate, and develop solutions to improve the 
current homeland security grant process.
    I would also like to extend a warm greeting to my old 
friend, Secretary Ridge. I believe that you have one of the 
toughest jobs in the world. Merging 22 agencies into one 
Department comprised of over 170,000 employees is among the 
most significant challenges anyone has undertaken in the 
Federal Government since the creation of the Department of 
Defense in 1947. I think you have a tougher job than that.
    I am sure that the days when you were Governor of 
Pennsylvania, including the floods, seem heavenly compared to 
the challenge you are facing right now---- [Laughter.]
    And I just want to thank you and Michelle and your family 
for your sacrifice on behalf of your country.
    Secretary Ridge. Thank you, Senator.
    Senator Voinovich. I think people should really understand 
what a burden that you are carrying for our country, and I am 
glad that you are willing to do it.
    As former governors, we know what it takes to accomplish 
goals at the State and local levels of government. Executives' 
decisions should be based on proper alignment and allocation of 
resources which are designed to meet a specific need within a 
community. Unfortunately, our current homeland security grant 
system is based on a fragmented structure that impedes the 
effective decisionmaking at the State and local governments, 
and I think you are aware of the problem. I am cosponsoring a 
bill with the Chairman of the Committee that moves the Office 
of Preparedness into your office. As you begin working in the 
Department, it is important for Congress to make small 
legislative changes to help you to get the job done and to 
respond to the needs of people on the State and local level.
    I think one of the biggest problems that we have, though, 
Mr. Secretary, is the fact that--and it is the one that Senator 
Stevens just mentioned before, and that is that there are big 
expectations out there about what we are going to do for State 
and local governments. We must put them in a position where 
they can respond to the new risks that they have because of 
September 11. I think it is really important to streamlike the 
grant dissemination process, but it is more important to 
clarify just exactly what it is that we are going to do in 
terms of helping State and local governments first and 
foremost.
    Senator Stevens made reference to a fire department that 
was in need of a fire engine, and because of September 11 and 
the new homeland security funding, they are going to obtain a 
fire engine. I have mayors that are telling me that they don't 
like the fact the money is going into the States and then it is 
allocated to them. Some have expressed an interest in going 
back to the community development block grant program. As you 
recall, there is a large city entitlement program and then you 
have got the small cities entitlement. That might be a way of 
dealing with that problem.
    And then the other one that has been a problem is the issue 
of paying for personnel and do we anticipate paying for 
personnel. There is a provision, I guess, that you can only 
spend the money for equipment. Well, maybe that is what it is 
supposed to be. We are only going to pay for equipment or 
training. But are we involved in paying for personnel, adding 
new people to our fire department, police department, emergency 
medical services? Is that what this is all about?
    So there are a lot of these questions that I think that 
really need to be clarified, and my only suggestion to you 
would be that perhaps it is time for you to maybe sit down with 
the National League of Cities and the U.S. Conference of Mayors 
and maybe our old National Governors Association and have a 
very honest dialogue with them about just who is responsible 
for what.
    I mean, we cannot prepare for every incident that can 
possibly happen and pay for it. If Osama bin Laden is alive 
today, the guy has got to be the happiest man in the world 
because he has wrought more on this country than probably any 
individual in the history of the United States of America, and 
if we keep going the way we are, we will bankrupt the country. 
There are just so many resources that we have and they have got 
to be allocated in the most efficient, effective way possible 
because you can't possibly take care of everything.
    Madam Chairman, intelligence is probably the most important 
thing that we have in this country. If we have a good 
intelligence system and we can prevent things happening in this 
country, then we don't have to spend the money to secure 
everything that we can possibly think of that could be in 
jeopardy.
    So you have a tough job and we want to work with you, and 
we know it is not going to happen overnight. I think that too 
often, those of us on the legislative side of government think 
you can snap your fingers and something is going to happen, and 
I know from my experience as Mayor of Cleveland and as 
governor, it doesn't happen that way. I have to say that some 
of the most important changes I made in my governmental career 
took 3 and 4 years to accomplish. It took time. And if I had 
rushed into them and tried to do it quickly, I would have 
fallen flat on my face.
    So I think that we need to be patient with you, and at the 
same time, I think you have to understand that we have got a 
lot of pressure being put on us. People want action, and we 
just want you to know we want to work with you.
    Secretary Ridge. Thanks, Senator.
    Chairman Collins. Thank you very much, Senator Voinovich. 
As a former mayor of a large city, your perspective is 
particularly helpful to this Committee as we try to define the 
appropriate relationships and roles of the Federal, State, and 
local governments for homeland security.
    I am now very pleased to welcome our witness today, 
Secretary of Homeland Security Tom Ridge, as we try to find 
ways to help our first responders and State Governments receive 
the resources that they need to succeed in their duties.
    Secretary Ridge officially assumed his position when the 
new Department of Homeland Security opened its doors on January 
24 of this year. He had, however, been serving as the 
administration's point person on homeland security since he was 
appointed as the first Director of the Office of Homeland 
Security in 2001.
    I would be remiss if I were not to mention that this past 
Tuesday marked the Department's and the Secretary's official 
first 100 days of work. In such a short time, Secretary Ridge 
and his team have put the new homeland security structure into 
place and completed the first phase of the largest Federal 
reorganization since World War II. He has also successfully 
implemented Operation Liberty Shield, deployed new programs and 
tools to protect our borders, and distributed billions of 
dollars in grants.
    I look forward to hearing the Secretary's testimony today. 
Again, thank you for your hard work and for appearing before us 
today and please proceed with your statement.

   TESTIMONY OF HON. TOM RIDGE,\1\ SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Ridge. Thank you and good morning, Chairman 
Collins, Senator Voinovich, and to the distinguished Members of 
the Committee who I am sure will be joining us after the vote.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Ridge appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    It is a pleasure and a privilege to be here with you for my 
first appearance before the Governmental Affairs Committee--as 
your colleague Senator Carper mentioned--as Secretary of 
Homeland Security. This is, after all, the Committee's 
principally responsible for the creation of the Department 
itself, and I thank you for your historic efforts in that 
undertaking and for your continued interest and support.
    I particularly appreciate the opportunity to appear before 
you today to discuss possible ways to improve the Department's 
homeland security grant programs. We, as Americans, have an 
appropriately deep sense of gratitude, respect, and admiration 
for the dedicated and courageous first responder community. 
They are the ones we turn to first in time of need and they 
never let us down. When something happens in the local 
community, whether it is by force of nature, a criminal act, or 
the force of evil, folks don't dial area code 202 for help. 
They pick up the phone, and they call the local first 
responder. I think we now better appreciate that more than any 
other time in our Nation's history.
    It is a priority of this administration and the Department 
of Homeland Security to effectively and efficiently meet our 
responsibility to support first responders as they play their 
critical role in counterterrorism efforts. I am pleased to be 
given the opportunity to work with leaders at the State and 
local level to ensure that this support, as all the Members of 
the Committee have noted very appropriately to make sure, is 
properly organized, properly focused, and properly funded.
    Today, we operate in both a fiscal and homeland security 
environment where we must ensure maximum benefit is derived 
from every security dollar. To do that, we must have the 
courage to question the way we do business and the will to make 
changes if we find that there is a better way.
    Two questions I would like to address today are, first, can 
we improve the way that the Department of Homeland Security's 
first responder grant programs are organized? And second, can 
we improve the way that these grants are distributed? I believe 
the answer to both of these questions is an emphatic yes.
    Currently within the Department, the Office for Domestic 
Preparedness issues formula grants to State and local first 
responders from its placement within the Directorate of Border 
and Transportation Security. At the same time, the Directorate 
of Emergency Preparedness and Response issues fire grants to 
State and local fire fighters. At the same time, there is also 
an Office of State and Local Government Coordination, which 
serves as our principal liaison to State and local entities, 
but this office doesn't administer any grant programs at all.
    All three of these entities are doing a superb job with 
their respective programs, but without a doubt, the degree of 
coordination is far greater than before the Department was 
created, and yet I believe, and I think it is shared by the 
Chairman and many Members of the Committee, that there are 
steps available to us that would streamline and improve the 
important work that they do in supporting our State and local 
partners in the war on terrorism.
    The President's budget request for fiscal year 2004 
proposes that all monies for both the Office for Domestic 
Preparedness and fire grant programs be administered through 
the Office for Domestic Preparedness. The request is a $3.5 
billion commitment to support first responders, and it is a 
major step toward simplifying the administration and 
dissemination of first responder grants. It would also move 
State and local governments toward the much-needed one-stop 
shop they have been seeking, consolidate related functions 
within the Department of Homeland Security, and certainly would 
improve the coordination among these programs.
    S. 796, a bill written and cosponsored by Chairman Collins 
and Senators Lieberman and Durbin, takes a second and equally 
important step. It would move the Office for Domestic 
Preparedness from its current placement within the Directorate 
of Border and Transportation Security and place it within the 
Office of State and Local Government Coordination. It would 
also strategically place funding programs for State and local 
first responders within the office directly responsible for 
maintaining communications and coordinating Department activity 
with State and local governments.
    The administration supports the move of ODP as proposed in 
this legislation, and I look forward to the opportunity to work 
with everyone on this Committee, the Chairman and the Ranking 
Member, in a bipartisan fashion on the particulars of the bill.
    Both of the above-mentioned steps will substantially 
increase the efficiency with which these programs operate. 
There are additional changes, though, that are needed to reach 
similar improvements to increase the effectiveness of the 
grants.
    We have learned much about securing our homeland since 
September 11, 2001. One lesson that has become clear is that we 
certainly can improve upon the formula currently being used for 
distribution of ODP grants as partially defined within the 
PATRIOT Act. The concept behind the PATRIOT Act is valid. 
Security needs to be improved everywhere, and more protection 
is usually needed where more people reside or work. The current 
formula fails to recognize that linear population increases do 
not always equate to linear threat increases. Concentrations of 
people, critical infrastructure, and politically attractive 
targets can tend to increase threat levels exponentially.
    The need to separate out funds for high-threat urban areas 
was first recognized and addressed in the fiscal year 2003 
Omnibus Bill. That need was again addressed in the fiscal year 
2003 Wartime Supplemental. While the steps taken in these bills 
are effective in the short term, I believe we need to address 
the cause behind the need for them, as well, and make long-
term, better yet, permanent changes to the distribution 
formula.
    In that spirit, DHS is currently working to develop an 
updated formula that better takes into account threats, 
population density, and presence of critical infrastructure. We 
look forward to working with Members of this Committee, Members 
of Congress, our Nation's State and local first responders, and 
stakeholder communities throughout this entire process to 
ensure that effective and equitable funding is provided.
    Let me close with a reaffirmation of the administration's, 
of the Department's, and my own personal commitment to our 
Nation's heroic first responders. We all salute them for their 
patriotism and thank them for their service. The people at the 
Department of Homeland Security are committed to doing all 
within our power and purview to see that the first responder 
community and all those involved in protecting our homeland are 
part of a well organized, properly resourced, and focused team.
    I thank the Committee for the opportunity to share these 
thoughts on this most important topic and welcome any questions 
you might have.
    Chairman Collins. Thank you very much, Mr. Secretary.
    Before turning to questions, I would like to give the 
Senator from Illinois an opportunity for any opening comments 
that he might like to make.

            OPENING STATEMENT OF SENATOR FITZGERALD

    Senator Fitzgerald. Thank you, Madam Chairman. I would just 
ask unanimous consent to submit my opening remarks for the 
record.
    Chairman Collins. Without objection.
    Senator Fitzgerald. Thank you.
    [The prepared statement of Senator Fitzgerald follows:]
            OPENING STATEMENT OF SENATOR PETER G. FITZGERALD
    Good morning, Secretary Ridge. I want to join my colleagues in 
welcoming you today. The last time you appeared before this Committee 
was for your nomination hearing on January 17. You and the Department 
of Homeland Security have accomplished a lot since then, and I want to 
thank you for your dedication and leadership in protecting our Nation 
and the American people from acts of terrorism.
    The subject of today's hearing is streamlining and enhancing 
homeland security grant programs. I have heard from a number of 
Illinois officials regarding the need to streamline the homeland 
security grant process to expedite the allocation of funds, especially 
to first responders. Therefore, I want to thank Chairman Collins for 
holding this timely and important hearing today.
    As we consider this issue, it is important to ensure that tax 
dollars allocated for homeland security are invested wisely and that 
the investment is maximized to the greatest extent possible.
    One area for consideration is how funds are spent when localities 
respond to heightened alert levels. The U.S. Conference of Mayors 
recently reported that cities spend an estimated $70 million more per 
week when the national threat level is Code Orange, compared to Code 
Yellow. Localities across the country deploy police officers and other 
emergency response personnel for longer hours in what appears to be a 
``one-size-fits-all'' approach. This leads to significant overtime 
expenses although there is no specific local threat. I look forward to 
hearing how the Department of Homeland Security is providing guidance 
and intelligence to localities to improve the allocation of limited 
resources.
    A second way to maximize the Federal investment is to minimize 
duplication and overlap of homeland security programs through close 
coordination at the State and local levels. The State of Illinois, for 
example, has a Terrorism Task Force that includes over 40 agencies, 
associations and organizations throughout the State. The Terrorism Task 
Force represents law enforcement, fire service, public health, 
emergency management, public works, and other disciplines. With limited 
resources, this Task Force is working to ensure a coordinated domestic 
preparedness strategy in our State. I would be interested to hear how 
the Department of Homeland Security is working with State and local 
officials to foster collaboration and coordination in the allocation of 
grant funds.
    Another way in which the Department can help ensure the best use of 
tax dollars is through rigorous audits and financial management. As the 
Chairman of the Governmental Affairs Subcommittee on Financial 
Management, the Budget, and International Security, I have a special 
interest in the issue of independent audits of Federal agencies and in 
making our government more accountable to the taxpayers.
    In January 2003, the General Accounting Office (GAO) included the 
Department of Homeland Security on its so-called ``High Risk'' list as 
a program with Major Management Challenges and Program Risks. Strong 
financial management systems are necessary to ensure that homeland 
security funds are not misdirected at the Federal, State, or local 
level. Therefore, I look forward to hearing what steps the Department 
is taking to institute financial systems that will ensure sound 
accounting of homeland security grant funds.
    On a related issue, news reports indicate that the FBI this week 
issued an alert to State and local law enforcement agencies regarding 
nuclear power plants. Although no specific threats were reported, the 
FBI urged that the plant owners and operators should be aware of any 
suspicious activity that may signal a possible terrorist attack. In 
addition, on Tuesday of this week, the Nuclear Regulatory Commission 
issued new security rules for nuclear power plants. I look forward to 
hearing your views on these developments.
    Again, thank you Secretary Ridge, for being here today and for your 
leadership on behalf of the American people.
    Thank you, Chairman Collins.

    Chairman Collins. Secretary Ridge, I want to start my 
questions by following up on your testimony about the 
allocation of Federal funds. We all know that formula fights 
are never pretty. Pitting various regions or cities in the 
country against one another as they scramble for Federal funds 
is always a difficult task.
    The largest source of homeland security funding now is 
ODP's State Homeland Security Grant Program, and it is my 
understanding that ODP currently distributes the funds based on 
a minimum State allocation of 0.75 percent and then adjusts the 
rest according to population. Is that essentially correct?
    Secretary Ridge. That is correct. The States each get 
three-quarters of one percent of whatever the dollar amount is, 
the territories get one-quarter of a percent, and the rest is 
population-based. You are absolutely correct.
    Chairman Collins. And I know that you are looking at 
modifying the formula. You make the point in your comments that 
population doesn't necessarily equate to threat, and we 
certainly know that population density would in no way have 
predicted the unwelcome role that my small State played in the 
September 11 attacks.
    In addition, population-based formulas don't take into 
account the presence of historic monuments that might be 
attractive targets, seaports, whether the State is a border 
State, military bases or other particularly vulnerable targets. 
Could you expand for the Committee on what factors the 
Department is looking at as you attempt to come up with 
recommendations for a new formula?
    Secretary Ridge. Thank you, Madam Chairman. I would be 
pleased to. We have run some exercises using the traditional 
formula, which is the basic allocation plus population, and 
have used varying weighting on threat, that is, the threat 
which would be acknowledged by the intelligence community, 
analysts from the FBI would take a look at the region or the 
State, from the Department of Homeland Security, from the CIA, 
so that we have taken a look at the basic funding formula plus 
weighting some factor for purposes of the threat assessment. 
Based on intelligence information, the threat may be higher in 
certain cities or communities than others. Then we plugged in a 
certain weighting factor for vulnerability. Vulnerability 
relates to the infrastructure, both public and private, in a 
particular region or community. And then, clearly, there is a 
place for population density.
    To date, we haven't, in the numbers and the dry runs that 
we have done on a Statewide or national basis, haven't found 
anything that's acceptable. That's why we welcome the 
opportunity to work with Congress to find something that is 
acceptable.
    It is much easier, and I think Congress may have given us a 
pathway that I think we should discuss, because I do start with 
the notion that every State needs a minimum level of funding, 
because there will be training. One of our jobs is to create 
national training standards and certify them, and so States 
will be, I think, ultimately in need of X-number of dollars for 
training their first responders and their first preventers.
    So, you start with a basic formula and then you add these 
other components of threat and vulnerability and population. It 
is much easier to apply that, we think, to either large urban 
areas or regions. What Congress did in the 2003 bill, by giving 
the traditional funding of $1.5 billion, and then there was 
$100 million for an urban security initiative. In the 
supplemental, there was a traditional funding and then $700 
million for high-threat or urban security areas.
    There is a little bit more flexibility in that, and so I 
think there is possibly a combination of both where we may take 
a look at the formula, where we make sure all the States get a 
minimum level of funding because there are certain things that 
the Federal Government wants the States to do, and the Congress 
has said those dollars are distributed 20 percent to the 
States, 80 percent to the locals. And then, another pool of 
funding is available where I think, frankly, the threat 
assessment and the vulnerability assessment, more clarity and 
more precision is brought.
    But no matter what we do, Madam Chairman, we will attribute 
certain weight and certain value to the threat, the 
vulnerability, the population, and population density. We just 
have to see if we can come to some agreement as to what the 
weighting factor is.
    Having said all that, and I didn't mean to give you such a 
long-winded answer to a very complicated problem, but at the 
end of the day, I hope that while we are discussing the 
formula, we say to our friends, governors, the cities, and 
mayors, as Senator Voinovich pointed out, we shouldn't 
distribute a dollar, a security dollar, unless it is consistent 
with a plan, an overarching plan brought to us by the States.
    That doesn't mean we are going to necessarily send all the 
money through the States to distribute through the locals. But 
every security dollar we should distribute should be 
distributed according to a plan rather than trying to respond 
to the individual requests of thousands and thousands of 
communities around the country.
    Chairman Collins. Mr. Secretary, let me follow up on your 
point about having a plan. One of the concerns that I hear from 
State and local officials is that there are too many homeland 
security plans required, each with its own set of benchmark and 
questions. I am told by emergency management officials in my 
State, for example, that they have to have an emergency 
management plan for ODP, for FEMA, for the Department of Health 
and Human Services, for the Environmental Protection Agency, 
that there are a lot of the same questions, that there is no 
coordination. That produces a lot of paperwork for them.
    Shouldn't there be a way to consolidate some of those 
plans? A plan is very important, and we all agree that should 
be required. But do we need to require so many plans to so many 
different agencies?
    Secretary Ridge. Madam Chairman, you and your colleagues 
are absolutely correct. One of the challenges we have, and I 
believe together we can solve it, is to eliminate the 
duplication in the planning process associated with dollars 
that not only relate to terrorism and counterterrorism 
activity, but as you indicated, there is a lot of overlap on 
basic questions, because some of the training and the exercise 
equipment that you may get from one agency are really relevant 
and useful in the event of another non-terrorist-related event. 
So I think there is enormous benefit that we could bring to the 
whole process of ensuring that every dollar is well and wisely 
spent if we work together to consolidate that process.
    We are doing the same thing. Over the years, there have 
been four or five national incident management plans. Congress 
said to this agency, you develop one, and said to another 
agency, you develop one. We don't need four or five national 
incident management plans, we need one.
    And so I certainly would look forward during the 2004 
budget cycle to working with this Committee to see what we can 
do to reduce the paperwork. Ultimately, our goal in the 
Department of Homeland Security is to have all plans submitted 
to us without paper, and I think a lot of the folks out there, 
the States and the locals, would appreciate having the 
opportunity to submit one paperless plan to one agency that 
would direct a substantial part of their funding.
    Chairman Collins. Thank you, Mr. Secretary. I have 
additional questions for the next round, but I will now turn to 
Senator Levin and I want to thank Senator Levin for presiding 
while I was voting.
    Senator Levin. I am afraid I didn't fully occupy that spot 
because I had to leave and had to recess, but sorry we couldn't 
quite connect the dots.
    Chairman Collins. It went well.
    Senator Levin. Mr. Secretary, in your initial grant 
announcement of high-threat urban area grants, I was, frankly, 
quite surprised to see that my home town was not there given 
the obvious factors that exist, including the border location, 
the highest commerce point between ourselves and Canada, the 
whole population issue, what that population is, the nature of 
that population in terms of the immigration and so forth.
    But in your grant announcement, you said that the cities 
were chosen by applying a formula based upon a combination of 
factors, including population density. And then it reads, 
critical infrastructure and threat vulnerability assessment. 
Can you tell us something about that, that criteria that was 
used----
    Secretary Ridge. Yes.
    Senator Levin [continuing]. Critical infrastructure and 
threat vulnerability assessment. Was there a factor given to 
that? Was there a qualitative number given to all of the cities 
that were considered, or how did that work?
    Secretary Ridge. Senator, thank you for the opportunity to 
explain the distribution of that $100 million. As I mentioned 
briefly, I think Congress gave us the discretion, but with some 
guidance, and said, come up with an assessment based on the 
factors that you mentioned, threat, what does the intelligence 
community view the nature of the threat based on information 
they have secured about either this city, this region, or this 
State. Again, we looked and got three different estimates from 
our own shop. We had the FBI take a look at it. We had the CIA 
take a look at it. And by and large, the estimates were pretty 
much the same. In a classified session, I will be happy to show 
you what we did.
    Vulnerability--you can't confuse threat from vulnerability. 
Threat is basically an assessment based on information that the 
intelligence community has. Vulnerability has a lot to do with 
the kind of infrastructure that exists if subject to a 
terrorist attack could result in a catastrophic loss of human 
life or enormous economic disruption.
    And then, obviously, we weighted population. More often 
than not in the United States, the greatest possibility of a 
catastrophic loss is associated with infrastructure close to or 
proximately located next to a large urban area, and we weighted 
it, and admittedly, the factors that we put in the equation for 
threat and vulnerability and population density are a 
variation. You gave us the discretion and we did it. We came up 
with those cities, and obviously, your city of Detroit and 
other cities were assessed.
    I then made the decision, and I will take full 
responsibility for it, that instead of sending out a little 
money to a lot of cities to make significant investments in the 
cities that under our formula seemed to merit the support with 
that limited amount of money. I assure you, Senator, using 
basically the same formula, Detroit, because of population 
density, and infrastructure, will be there.
    But again, it is something I would be very happy to share 
with you privately.
    Senator Levin. I would like to see those numbers that were 
allocated----
    Secretary Ridge. Yes, absolutely.
    Senator Levin [continuing]. And the various criteria, and I 
assume other Members of the Committee would also be interested. 
But in any event, I would be interested.
    Secretary Ridge. Yes.
    Senator Levin. Now, I want to go back to the coordination 
of intelligence question. There is a new independent 
intelligence agency called TTIC, or the Terrorist Threat 
Integration Center. The operation was announced yesterday.
    I would like to know the relationship between your 
Directorate for Information Analysis and Infrastructure 
Protection and TTIC and the Counterterrorist Center, the CTC. 
It seems to me that there is some duplication involved there. I 
don't quite understand, and I read the article about the 
operational announcement yesterday describing it, and it sounds 
an awful lot like the CTC to me, both in the CIA, both 
analyzing intelligence, foreign intelligence.
    But what is your understanding, first, of the difference 
between the CTC and TTIC, and second, what is your relationship 
between your agency and both of those two entities, and 
finally, we suggested at our last hearing that there be a 
written statement as to what the responsibilities are, because 
if they are not clear, if they become vague, we are not going 
to have accountability and we are going to have a repeat of the 
intelligence failure that we saw prior to September 11. So we 
have got to be very clear on responsibility so that we have 
accountability in this process.
    So what is your understanding of those three relationships 
and will there be a written statement of those three 
relationships forthcoming?
    Secretary Ridge. Senator, the CTC, the Counterterrorism 
Center, the CIA, the FBI's analytical team, DOD, the new 
Department of Homeland Security, and several other agencies, as 
you know, have their own independent analytical teams. There is 
no single place, no single venue, where all the information 
generated by all of those information gathering agencies within 
the Federal Government, as well as external international 
sources, is located.
    TTIC, the Terrorist Threat Integration Center, will be the 
final and ultimate consumer and collection point for all of the 
information. The CTC feeds information as does the FBI. We have 
several intelligence gathering units within our Department. We 
will feed information in.
    So the Threat Integration Center is the venue that has 
access to all the information generated by everybody else on a 
day-to-day, real-time basis. It will continue to get stronger 
and better as each of the individual agencies improve their 
technology assessment capability within it. That is number one.
    Senator Levin. Because my time is up, what will it get in 
terms of information to analyze that the Counterterrorism 
Center does not get? What will TTIC receive in terms of 
information that it is supposed to analyze and be ultimately 
responsible for that the Counterterrorist Center does not 
receive?
    Secretary Ridge. I think there are certainly occasions when 
information generated by Federal agencies as a matter of 
course, don't necessarily get to the CTC. I think with the new 
Department of Homeland Security, as I have traveled around the 
country, and I think you have, too, as we are developing State 
and local sources of critical information relating to terrorist 
activity, that information will be poured into the TTIC. I 
think there are significant pieces of information that are out 
there in the world that don't, as a matter of course, get to 
the CIA, and I think, again, this is the single collection 
point for all of that.
    Our unit, the information analysis and infrastructure 
protection unit, is both a consumer of that information from 
the TTIC and a provider of information to it. We will have some 
of our analysts working side-by-side on a daily basis with the 
other analysts in the CIA, the FBI, and DOD on a day-to-day 
basis, as well.
    So the advantage it gives to us in the new Department, and 
there was a lot of concern expressed by Members of Congress, is 
access to raw data. Will you have access to the work products 
or the raw material generated by all these other agencies? The 
answer is absolutely yes, because we will be placing some of 
our own analysts from the Department of Homeland Security to 
work on a day-to-day basis within the Threat Integration 
Center.
    Senator Levin. Thank you, Madam Chairman.
    Chairman Collins. Senator Voinovich.
    Senator Voinovich. I would just like to comment that I am 
as much concerned about this as Senator Levin is in terms of 
the coordination of all this intelligence because I think that 
is the best defense that we have against terrorism, and if we 
did that right, then a lot of these other costs wouldn't have 
to be incurred. So I do think that is real important.
    Second of all, according to the General Accounting Office, 
there are 16 different grant programs for the Nation's first 
responders. I would like to suggest that as you are looking at 
the idea of bringing the domestic preparedness into the State 
and local coordination, that possibly you might get in touch 
with Health and Human Services and the Department of Justice, 
who have programs, and see if there was some way that you would 
have a one-stop shop where it all comes into that one place.
    Also, about 3 years ago, I introduced a bill with Rob 
Portman from Ohio called the Federal Financial Assistance 
Management Improvement Act. The purpose of it was to untangle 
the web of Federal grants available to States and localities 
and nonprofits. It directs each Federal agency to develop and 
implement a plan that, among other things, streamlines and 
simplifies the application, administrative, and reporting 
procedures for Federal grant and loan programs and also 
reporting on them. I suggest you examine what other agenceis 
are doing to implement this law. I know HHS is spearheading one 
of the President's E-Government initiatives called E-Grants. 
That might be a good place to start.
    The other issue, as the Mayor of Columbus is concerned 
about, he says, ``I only can use money for equipment, but none 
for personnel,'' and I suspect the reason why they can't use it 
for personnel is that you didn't anticipate that they would be 
using it for personnel, and some of them are saying, well, if 
you get the equipment, I need the personnel. I think that needs 
to be clarified. Are there instances where money is made 
available for personnel?
    Secretary Ridge. Senator, I think the answer to that is to 
support overtime payments for personnel, but here is one of 
those defining issues that I think, at least from our 
perspective, Congress may have a different perspective. From 
our perspective within the Department, historically, there has 
been primarily a State and local responsibility to provide for 
public safety. Historically, mayors, the Mayor of Cleveland, 
Governors of Ohio and Pennsylvania worked to provide money for 
police and fire and emergency responders and the like, and I 
think that is still very much a part of the Federal system that 
we have.
    And so I think the notion that even under the new 
circumstances under which we operate in the 21st Century, 
combatting international terrorism, that the Federal Government 
would be involved in the hiring of local or State police and 
fire fighters, that is just not, I think, consistent with the 
history or the appropriate approach toward the shared 
responsibility of dealing with this issue.
    I have heard from governors and mayors that they would like 
that some of the dollars that we are distributing now be 
allocated not just to training and exercises and equipment, but 
to overtime, because some of the things that we have asked them 
to do and some of the things they have had to do when we have 
gone to Code Orange or Liberty Shield involved keeping people 
at work longer. I think that is a legitimate cost that we 
should help them absorb. So as we go about talking about 
flexibility either now or in the future, I think overtime costs 
related to enhanced security, particularly at the direction of 
the Federal Government, should be an eligible cost.
    Senator Voinovich. That being clarified would help a great 
deal, I think.
    The other issue is that we have seven high-threat cities, 
and I think you have already answered that, that you allocated 
those funds because you felt, based on your assessment, those 
are the ones that were most vulnerable. But Detroit, Columbus, 
other cities--for instance, Columbus is the capital city. There 
are many defense installations and so forth. Are you 
contemplating adding any more?
    Secretary Ridge. Absolutely, Senator. The $700 million, 
even with the same formula, gives us a lot more flexibility to 
make significant investments in additional cities, as well. 
There was a question of whether I thought the Congress wanted 
me to dilute those dollars or really make a significant 
investment in enhancing the security of those communities, and 
I thought it would be better to make that significant 
investment. Then you gave us the same flexibility with a lot 
more money, so there will be quite a few more cities that will 
benefit.
    Senator Voinovich. And I am just as interested in how that 
is going to be done.
    I am also concerned about the Emergency Management 
Performance Grant, the EMPG. As you know, they are the backbone 
of our Nation's State and local government emergency management 
agencies. According to Dale Shipley, who runs our EMS situation 
in Ohio, EPMG's have not been identified in the 2004 budget. 
How is that going to be taken care of?
    Secretary Ridge. I have had that good conversation, maybe 
even with Dale, but when I was in Ohio a couple of times, 
emergency management professionals talked to me about that, 
some from our own State of Pennsylvania have, and the like. It 
is not identified specifically, but I know its role and how 
important it is to planning and then operational preparation.
    So I have assured the emergency management community that I 
supported those grants. One, I felt there was a good 
possibility that Congress may just restore the line item, but 
in the event they didn't, I think it is a critical program and 
I would ensure they had funding similar to last year's level at 
the minimum.
    Senator Voinovich. The last question would be just how you 
are going to continue the 100 percent grant program, because 
many of the communities are strapped right now for funds and 
they are interested in knowing whether their rules are going to 
change.
    Secretary Ridge. Under the ODP program, as a matter of 
fact, we just went online yesterday with the $1.5 billion you 
gave us in the supplemental. The rules haven't changed. While 
you gave us the discretion to send some of that money out based 
on threat and vulnerability and critical infrastructure, again, 
we worked hard to see if we could make a formula work. We 
weren't satisfied with anything we came up with. We also saw 
you gave us $700 million where we thought the formula worked 
much better. So that $1.5 billion is going out as Congress 
directed, 80 percent to local communities, 20 percent to the 
States under the traditional ODP formula.
    Senator Voinovich. Thank you.
    Secretary Ridge. Yes, sir.
    Chairman Collins. Thank you, Senator. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman.
    The first question I have is about interoperable 
communications. We have had some discussion about this in this 
Committee, and I think you have been part of that and some of 
your people at Homeland Security have. Is there something that 
this Committee should be doing to encourage this and get 
interoperable communications systems in place?
    Secretary Ridge. Senator, Congress has been, I think, 
fairly generous, appropriating in excess of $40 million so that 
we can run some demonstration projects with regard to 
interoperability of communications. That is something that we 
are engaged in now. That is something that the science and 
technology unit of the new Department has as one of its highest 
priorities.
    There was an announcement in the past couple of days that 
the FCC has expanded the broadband that will be available for 
homeland security, so right now, Senator, it is a high 
priority. It is a work in progress, and at some point in time, 
I will get back to you either privately or publicly and respond 
to the Committee to tell you where we are and how the 
demonstration projects are working out.
    Senator Pryor. Great. I know that today, there has been a 
lot of discussion about the grant process and the money and the 
complexity there has made it difficult to actually get the 
money to the local level. Obviously, this Committee has focused 
on it. It is important. You have acknowledged many times 
already it is important.
    But I want to talk about other things that are on your 
plate, other things that you are dealing with that are 
important, as well. And what I would like for you to do is just 
tell me, as a Member of this Committee, what should we be 
focused on to help you accomplish your mission? I mean, what 
tools do you need? What logjams do you need us to help break 
through? What do we need to be doing to help you accomplish 
your mission?
    Secretary Ridge. Well, I think, first of all, the Chairman 
and Ranking Member have identified a couple of operational 
needs that we have so that we can streamline security plans and 
streamline the distribution process. We will have further 
consultation with you with regard to getting more and better 
information down to the State and locals.
    But I will tell you, I think one of the most important 
things if we could reach agreement on with Capitol Hill, which 
means we have got to get agreement with our friends, the mayors 
and the governors and the like, that security dollars are 
distributed according to plans, not on an ad hoc basis, 
because, obviously, we will need to build in the years ahead 
basic capacities around the country, so that within large 
cities and then within regions, there are certain kinds of 
equipment, training exercises, and protocols that are fairly 
commonplace. We need in the new Department to set certain 
standards for communications, standards for equipment, and then 
certify that certain manufacturers meet our standards and let 
the mayors, police, governors, and fire fighters negotiate the 
best deal.
    So we know we have a role here, but I think one of the 
biggest challenges we have in terms of using Federal dollars 
most effectively is getting everybody on the same page. There 
has to be some mechanism that we can compare the request for 
the dollars and the expenditure to an outcome that we all want 
and see as important to this country in enhancing our security.
    I have talked to the League of Cities. I have talked to the 
NGA. I have talked to the mayors, and there is a predictable 
and traditional preference that they just come down and make 
their own application and fund it accordingly.
    I understand the concerns of local governments. They are 
afraid that if we just send the money to the governor's office 
that it is going to get tied up there. I think there are ways 
we can certainly obviate that. But I think the bigger issue is, 
let us agree on the strategic plan, capacity building over the 
years, and I think we can work out the funding stream rather 
easily.
    Senator Pryor. Do you feel like the process is in place to 
get through that logjam, or is it----
    Secretary Ridge. No, it is not. Candidly, I have spent the 
last year trying to convince folks that this is the best way to 
go about doing it. We have made a lot of progress. Everybody 
out there shares the common goal. They want to do the best for 
their community. They want to access the most dollars for their 
community. And they do understand the need for mutual aid. But 
some are more inclined to do it than others, and I just think 
that if we can work together here at the national level and say 
to our friends out there, you are going to get the dollars, and 
we will assure you that you will get them in a timely way. But, 
they are Federal dollars, and we just want to make sure that 
they are spent according to a plan. I don't think that is too 
much to ask.
    I think, just with your support, we will bring in the 
League of Cities and the NGA and everybody else to see how we 
can best do this, and I think if we streamline some of these 
grant programs, they might be far more inclined to do it.
    Senator Pryor. OK. Well, that is good to know, and I am 
about to run out of time, but let me ask one last question. In 
the past when we have talked about establishing the new 
Department, establishing a model agency, one that is very 
efficient, very effective, very good at what you do. And I know 
it is early in the history of the Department of Homeland 
Security, but if you can, grade yourself, grade the agency on 
how you are doing in terms of efficiency and effectiveness and 
completing your mission.
    Secretary Ridge. We haven't even had the mid-term first 
quarter exam yet.
    Senator Pryor. I look forward to it.
    Secretary Ridge. But I will tell you this. What I will 
grade is the interest, the desire, and, I think, by and large, 
the morale of the 175,000 to 180,000 people working in the 
Department. Some of them have been involved in agencies that 
haven't enjoyed the best public relations and they feel perhaps 
put upon, sometimes legitimately, sometimes not, but these 
people go to work every single day. They work hard. They work 
as smart as they can.
    Our job is to not only manage it better and organize it 
differently to build new capacity, but to train them better, to 
provide them more and better technologies. They are good people 
that are working hard. I will let somebody else give us a 
grade, but I think we have made a lot of progress in the first 
100 days. But we still have an enormous amount of work to do, 
and on some of these critical issues, we will need 
Congressional support in order to get it done. Thank you.
    Senator Pryor. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Fitzgerald.
    Senator Fitzgerald. Thank you, Madam Chairman, and 
Secretary Ridge, welcome back to the Committee. I want to 
compliment you again. I think you are doing a wonderful job, 
and keep it up. You are providing strong leadership for the new 
Department.
    I want to follow up with your answer to one of Senator 
Pryor's questions. You point out the need that allocating funds 
for homeland security should be based more on a plan than 
perhaps we are doing now, and it strikes me that you are really 
hitting on a key problem we have with these grant programs. I 
know the requests that are coming into my office, including a 
lot of communities all over my State that come to my colleagues 
from the Illinois Congressional delegation and me asking for 
this and that. Every local community wants more money.
    Half of what we do all day is talk to people who want more 
money, but we are not proceeding according to a plan here. I 
imagine that we are allowing too many political considerations 
to come into play. Your Department is probably receiving 
letters from Senators and Congressmen demanding a grant for 
this town or this city, and some House Committee Chairman or 
some key Senator who is up for reelection, who knows. These 
political considerations are going to come into play too much.
    Do you think we should maybe consider revamping the whole 
system to try and wall it off more from the political 
considerations? This is serious business. These are not pork 
projects. They are not public works projects. We are talking 
about the people's security. Is there something we could do to 
wall this off from politics more?
    Secretary Ridge. First, Senator, I would share with you, 
and I think we all agree, anybody that has been in public 
service longer than a day, and I have been there 20-plus years 
and some of my colleagues here have been here longer, no one 
ever walked across my threshold in the Congressional office or 
the governor's office and lobbied me for less.
    Senator Fitzgerald. Yes.
    Secretary Ridge. No one ever walked in and said, well, you 
really gave me a lot of money last year. I don't need as much 
this year. When it happens, I hope you will call me.
    So I understand. There is enormous pressure on all of us to 
try to find more resources, particularly during times when 
revenues are down at the State and local and national levels. 
So I understand that.
    I think that the existing grant programs that I have seen 
are products of the debate and perhaps compromise on the Hill 
as part of the political process. But like the ODP program or 
any of the other grant programs, I think Congress has pretty 
much immunized them from the politics of the town or the moment 
because there is a formula. We used the political system to 
decide everybody deserves a baseline and we used the system to 
decide, plus the baseline, you need to calculate and give 
credit to population and population density.
    So I am not worried at all about that. I think Congress has 
legitimized the process and made sure that the dollars go out 
absent any political considerations. This is why we need to 
engage ourselves in rethinking what that formula might be.
    Senator Fitzgerald. So you are saying all the letters we 
write don't really matter? [Laughter.]
    Secretary Ridge. I will tell you, there aren't too many 
places, Senator, in the grant program that I have seen where 
you have given us discretion, we have used it, but we have used 
it based on calculations and weighting factors that you told us 
we could use. If the letter is consistent with the conclusion 
we drew from the weighting factors, you got the money, and if 
it wasn't, you didn't get it, so----
    Senator Fitzgerald. I am glad to hear that, and if there is 
anything we need to be doing, let us know, because I think the 
money needs to be going out the door strictly on the merits, 
based on our security needs.
    With respect to the financial management of your 
Department, in January, the GAO included the Department of 
Homeland Security on its high-risk list, citing a number of 
major management challenges and program risks that you have. 
You are bringing in so many other components and consolidating 
them. Do you feel you are going to be able to get a grip on the 
financial records across the board and come up with clean 
financial statements that comply with the Chief Financial 
Officers Act that we are now requiring all the Departments to 
follow and hopefully get clean audit opinions every year?
    Secretary Ridge. Senator, that January report really just 
highlighted the circumstances around financial management 
practices of the different units that we began to consolidate 
on March 1. One of the things that we have done, we have taken 
a look at those GAO reports and Inspector General reports and 
basically gone back to those units saying, one of the first 
orders of business, since this is criticism with regard to 
either process or organization or fiscal management, is clean 
this up as we go about consolidating our effort. And I think, 
in fact, the process of consolidation and stricter 
accountability and more controls will help us address that. But 
those documents highlighted some challenges that we have and it 
is our job to meet the challenges, so we view them as 
constructive direction.
    Senator Fitzgerald. And finally, I just want to ask a 
question about nuclear power plant security. I saw briefly on 
the news yesterday some reports indicating that the FBI had 
this week issued an alert to State and local law enforcement 
agencies regarding nuclear power plants. I didn't see much more 
about it this morning.
    We are heavily reliant in Illinois on nuclear power. Almost 
50 percent of our power statewide comes from nuclear power, and 
we have more nuclear power plants than any other State. Can you 
give me an overview of what your Department is doing with 
respect to nuclear power plant safety?
    Secretary Ridge. Well, first of all, as you know, the 
nuclear facilities are under the control and regulated for both 
safety and security purposes by the Nuclear Regulatory 
Commission. Since September 11, 2001, there have been a series 
of initiatives that they have undertaken to assess 
vulnerability, and based on the assessment, improve security at 
each site. We work closely with the Nuclear Regulatory 
Commission. They have at least an individual accountable to 
them at each facility and we--and they monitor not only the 
assessments, but the actions that have been done, that have 
been taken in order to enhance security at those facilities, 
and they have the regulatory authority to direct that it be 
done if it is not.
    To date, it is my understanding that the assessments have 
been completed and that the enhanced security has been begun. 
Some of it is new construction. Some of it is with regard to 
perimeter security, cameras and the like. We have worked with 
them to do background checks, not only on employees, but 
contractors and subcontractors who come in, because there is 
constant work going on at these nuclear facilities.
    So I think there have been significant improvements since 
that time and because in the intelligence community that venue 
as a possible target pops up once in a while. I think what the 
FBI does is just send out a reminder, not too subtle, but a 
reminder that you might be a target to make sure you are 
following directions from the Regulatory Commission and you 
enhance the security protocol as you have been directed to.
    Senator Fitzgerald. Secretary Ridge, thank you very much.
    Chairman Collins. Thank you, Senator. Senator Carper.
    Senator Carper. Thank you, Madam Chairman.
    Governor, when I was succeeding Mike Castle as Governor of 
Delaware, he told me about a vision that he and his 
administration had for creating a Statewide interoperable 
communications system for fire, police, paramedics, and other 
emergency responders. The idea was an 800-megahertz system. We 
were just coming out of a recession at the time, however, so 
didn't have the money to do anything about it.
    As you know, during the time that we were governors, we had 
better times financially. We were able to do a lot of things. 
We actually had the money to go out and to hire somebody to put 
that kind of system in place in our State.
    I always think of the States as laboratories of democracy. 
Because Delaware is so small, it is more affordable to use it 
as a laboratory.
    As we go forward, looking at interoperable communications 
and demonstration projects around the country to see what works 
and what doesn't work and what the problems might be and how to 
address those, I would offer our little State. We have done it. 
We had some hiccups along the way. The folks at Motorola kept 
working with us until we got most of those resolved. But it is 
a pretty good case study and it might be of value. The folks 
who run the system are the Department of Public Safety and our 
DEMA operation, the Delaware Emergency Management Agency, so I 
would offer that if it is of any value.
    Second, I mentioned earlier, and so did Senator Collins, 
some legislation that she and I have introduced. I think 
Senator Akaka alluded to it, as well. The issue deals with 
flexibility.
    Secretary Ridge. Right.
    Senator Carper. I will just mention a couple of things. 
When we passed No Child Left Behind here a year or two ago, we 
provided more money for education, but we gave more money to 
States with greater flexibility to use in their schools. We 
said, in return for more money, more flexibility, we want 
results. We are going to hold you accountable.
    When we were working in the NGA--I see at least one NGA 
staff person sitting out in the audience there behind you--we 
sought to convince the Congress and the administration that if 
we are not going to provide a lot more money for passenger rail 
service, at least give State's governors the ability to use 
some of our transportation money, congestion mitigation money, 
for passenger rail if that makes sense. I recall a time when we 
said, well, we can use this money for bicycle paths, we can use 
it for freight railroads, we can use it to build roads and 
highways. We can't use it for passenger rail, even if that 
makes sense in our respective States.
    I think we have a similar situation here, and I would just 
recommend it for your attention. As I understand, the money 
goes out in four categories. I think they include planning, 
training, equipment, and maybe exercises. I think those are the 
four. And the legislation that Senator Collins and I have 
introduced, along with the support of others, allows States to 
apply to your Department for a waiver that would give them the 
opportunity to use some of the money across categorical lines. 
The Department, your Department would review the application 
from the State or from a local unit to ensure that the State's 
planned expenditures is consistent with the emergency response 
plan for that jurisdiction.
    If this bill becomes law--and a lot of the things that 
Senator Collins and I work on together do become law, I have 
noticed, isn't that right, Senator Collins?
    Chairman Collins. Absolutely.
    Senator Carper. It is kind of amazing.
    Chairman Collins. We have a good record.
    Senator Carper. We really do. We worked on something a year 
ago, and actually had a big success on the Senate floor, a big 
vote, and I said, you know, this the first time I have ever won 
anything. [Laughter.]
    And she said, ``I have never lost.'' [Laughter.]
    Chairman Collins. A slight exaggeration, but---- 
[Laughter.]
    Senator Carper. I said, well, let us work on some other 
things, so this is one of them.
    But if the bill becomes law, a State can get away with 
spending planning money on equipment, for example, or some 
other variation of that. I don't know that you are familiar 
with what we proposed. Any initial reaction to it?
    Secretary Ridge. Senator, I am familiar with the purpose of 
the legislation and the fact that you have introduced it. It is 
certainly consistent with how I think we should, as a country, 
deal with homeland security issues. We don't want to be so 
rigid that if----
    Senator Carper. So what?
    Secretary Ridge. Rigid. I was afraid you caught that. 
[Laughter.]
    Secretary Ridge. That we limit our funding so that it is 
not available to meet needs that they might have identified in 
the plan that I want them to have.
    I mean, you are right. We have four categorical areas, 
fairly broadly identified. But I would welcome the opportunity 
to work with you, because the principle is good of a little 
flexibility. I am not sure across the board. Someone mentioned 
earlier the notion that we just make it similar to a community 
development block grant. I am not sure that gets us where we 
need to be and assures that the security dollar gets the 
outcome that we want.
    But I look forward to working with you on that legislation 
and providing the locals and the governors some flexibility--
you and I enjoyed some flexibility with financing. As long as 
it is consistent with a plan, there is a great deal of merit to 
giving the States and locals more flexibility.
    Senator Carper. One last quick one, if I could. Governor, 
you have called on Congress to develop a new formula, we have 
talked about it a little bit here, but a new formula for 
Federal first responder aid so that the program places more of 
an emphasis on risk. As you know, the current formula is based 
largely on population. I talked to you a little bit about that 
in my comments. I think that can tend to shortchange less 
populous States.
    How would the new formula or a new formula that you 
envision take into account the need of less populous States 
like Maine or Delaware?
    Secretary Ridge. I think you start, Senator, with the base 
that there is a certain amount that every State receives at the 
outset, regardless of population, whether it is percentage or a 
dollar amount. I do think we have to recognize that there are 
long-term needs that every State will have that we should help 
sustain. But I don't know, Senator, whether long-term is a 
specific dollar amount based on population, if it is a 
percentage of the overall appropriation as it is now. It is 
just one of those issues that we need to review to get us much 
closer to the day when we are all more comfortable with the 
notion that the dollars are going where they are most needed.
    But clearly, there is a need to make sure that every State 
starts with a basic sum. How we arrive at that is in itself 
debatable. But then there are some add-ons that I think that we 
need to see if we can reach agreement on.
    Senator Carper. Mr. Secretary, we appreciate you being here 
today. We appreciate very much your stewardship and very much 
look forward to working with you, especially on the issue of 
flexibility of the legislation that we have introduced and hope 
that we can make some headway there.
    Secretary Ridge. Thank you, Senator.
    Chairman Collins. Thank you, Senator. Senator Specter.

              OPENING STATEMENT OF SENATOR SPECTER

    Senator Specter. Thank you very much, Madam Chairman.
    Mr. Secretary, I want to follow up on some questions which 
I had asked yesterday during the Appropriations Subcommittee on 
Homeland Security. First, I hope that these sessions before the 
various committees are not draining you of too much time to 
impede the operation of your office. We have, as you well know, 
the two Houses. You were in the House of Representatives for so 
many years, and authorizing and appropriating committees. But 
we do appreciate your coming in.
    The reports that I talked to you about yesterday, the GAO 
report was just made available actually yesterday afternoon, 
the one on local law enforcement, and they are voluminous and 
really matters of some concern on the central question as to 
coordination and really as to whether the Secretary of Homeland 
Security has sufficient authority.
    I continue to think that you need more authority. This is 
something you and I have discussed repeatedly, and it was 
really too bad that when we passed Homeland Security last fall, 
the Senate had a ``take it or leave it'' situation, where the 
House passed a bill and left town, and then it was a matter of 
our offering amendments or not. I had been pressing this 
amendment which would have given you the authority to ``direct 
the agencies to provide intelligence, analysis of intelligence, 
etc.''
    As I read through the voluminous GAO report and pick one of 
the conclusions on page 28, that to date, the Federal watch 
systems environment has been characterized by a proliferation 
of systems among which information sharing is occurring in some 
cases but not in others. This is inconsistent with the most 
recent Congressional and Presidential direction.
    And another voluminous report on local-Federal partnerships 
says this at page 64. ``Current systems are simply inadequate. 
While progress is being made in certain regions, the lack of 
national information sharing severely limits the ability of law 
enforcement to prevent and investigate terrorism,'' and 
repeated references to the FBI culture.
    I had decided not to introduce an amendment to give an 
opportunity to see how the system would work, and perhaps there 
hasn't been sufficient time to really see, but if we did have 
legislation and if this Committee took a very incisive 
oversight view, hearing from CIA Director Tenet and FBI 
Director Mueller, and the other agencies, really as only 
Congress can do--these reports are one thing, but when the 
Governmental Affairs Committee, when this Committee, which has 
principal authority and jurisdiction over these lines, would 
dig into it, we can, I think, make the best assessment as to 
whether the authority is sufficient.
    It may be that I just have a lot of confidence in you, 
Secretary Tom Ridge, which is certainly true. But after having 
chaired the Intelligence Committee and after having seen the 
battles with the FBI and DOJ oversight on the Judiciary 
Committee and the culture of concealment, I just have very 
strong reservations as to whether any system is going to be as 
good as having a new broom like the Secretary of Homeland 
Security come in.
    Do you think it would be helpful, and I know it is our 
choice to make, but do you think it would be helpful if this 
Committee undertook such an analysis with a view to legislation 
to give you the authority to direct the agencies to provide 
intelligence?
    Secretary Ridge. Senator, under the President's executive 
order--Senator Levin and I had a brief conversation about this 
in the earlier questioning--with regard to the Terrorist Threat 
Integration Center, which becomes the ultimate depository of 
all information, all raw data, and the like. We have by virtue 
of this, our relationship with this Terrorist Threat 
Integration Center, the capacity to set intelligence 
requirements. Our analysts within the Department of Homeland 
Security will also be placed in the Terrorist Threat 
Integration Center and we can go back to the Terrorist Threat 
Integration Center and seek very specific information and 
actually set some intelligence requirements that we need in 
order to do our job to protect the critical infrastructure.
    So I think--you mentioned in your introductory comments--
you are waiting to see the outcomes of how the reorganization 
might unfold and whether or not it addresses the concerns you 
have. I think, conceptually, it does, and I have no reason 
presently to think that it will not work operationally. We have 
only been up and running for a day, but I know that as we 
expand our intelligence analytical effort and as we begin to 
engage the State and local law enforcement community and the 
large cities around this country, they are developing their own 
analytical capability. As a matter of fact, they are starting 
to connect with one another, which I think will be enormous 
value added down the way, if they detect in different parts of 
the country different surveillance patterns, different kinds of 
activity, criminal and/or terrorist related.
    So I think we have that capacity right now, and I have no 
reason to think that the TTIC won't be responsive to any 
request for information we need.
    Senator Specter. My red light is on, but I have one more 
question. I came in after being at a Judiciary Committee 
hearing, but I was informed that you had testified that the 
only the Department of Homeland Security could receive raw 
intelligence was through the Terrorist Threat Integration 
Center. Is that so?
    Secretary Ridge. That is correct. Our information analysis 
group, and it is a concern that I think you raised even during 
our public discussions about this unit within the Department of 
Homeland Security, you expressed the concern of perhaps Senator 
Levin and others did, would we have access to the raw data. 
Since we have our analysts accompanying the CIA, the FBI, and 
other analysts in the Terrorist Threat Integration Center, we 
will. We will actually have DHS employees in that Threat 
Integration Center that will have access to it.
    Senator Specter. But that is only what the CIA or the FBI 
may voluntarily turn over.
    Secretary Ridge. Well, Senator, I think that the 
President's direction to the CIA and the FBI and everybody else 
is that everything is to be available to the Terroist Threat 
Integration Center, and----
    Senator Specter. Well, unfortunately, as I have seen, there 
may be directives, but they are honored in the breach more than 
the observance. Maybe it wouldn't do any real good to give you 
the authority to direct, but I would certainly feel a lot more 
comfortable if the new agency which has the ultimate 
responsibility was in a position to direct, as contrasted with 
waiting for the other agencies to comply.
    Thank you very much, Mr. Secretary.
    Secretary Ridge. Thank you, Senator.
    Senator Specter. Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator Specter.
    I know the Secretary is on a tight schedule. We are going 
to do one final round of questions of 5 minutes each, and I 
would ask my colleagues to try to adhere to that 5 minutes in 
view of the Secretary's schedule.
    Mr. Secretary, at our last hearing, we heard from first 
responders who talked about the communication between the 
Department and first responders. A report that Senator Specter 
alluded to that was requested by Senator Levin and Senator 
Grassley and released yesterday suggests that there are still 
problems as far as getting terrorist watch lists in a 
consolidated way available to State and local law enforcement 
officials.
    Similarly, the witnesses at our last hearing testified that 
they had all learned of the elevated threat status to Code 
Orange from television rather than any sort of formal 
communication. Could you address both of those issues and the 
issue of communication with State and local governments?
    Secretary Ridge. Sure. First of all, Madam Chairman, I 
don't believe there is any Federal agency that on a routine 
basis has as much interaction with States and locals as the new 
Department of Homeland Security. I may be wrong, but we have 
several phone calls a month with homeland security advisors 
where we engage. We have a very aggressive outreach effort, and 
it will continue to improve and I am not going to say here that 
all is right and is as complete and comprehensive as we want it 
to be.
    But we think we have a very strong foundation upon which we 
can build. The President has very appropriately noted that you 
can't secure the homeland without securing the hometown, and 
the only way we do that is make sure that our partners at the 
State and local level are engaged.
    So we will continue to work on that. I think pulling in the 
grants into the State and local unit within the Department of 
Homeland Security, and as we staff up, that communication will 
continue to get better and better.
    Let me just briefly share with you the process, because I 
anticipated the question because I hear it from our friends all 
the time in State and local government, that we go through once 
we have made the decision to take the system up. We have done 
it three times in a year.
    We make the decision to raise the threat level, and that is 
another series of steps. We then give advance conference calls 
that I am engaged in to notify governors, State homeland 
security advisors, and key mayors, as appropriate. 
Simultaneously, there is an electronic notification to the 
Homeland Security Centers, the State, local, private sector, 
and other Federal agencies via INLETS, FBI, and the law 
enforcement community.
    Shortly thereafter, there is a conference call with the Big 
Seven and other State and local associations. There is a 
conference call with as many State and local law enforcement 
associations that we can get. And again, one of the challenges 
is that we admit that you can't arrange these conference calls 
too far in advance because the decision hasn't been made. We 
then engage the Business Roundtable CEO Link. We then make a 
public announcement through a press briefing. That is something 
we have done historically. Then we have conference calls with 
14 critical infrastructure associations. We call other business 
groups.
    It is as much a frustration to those of us in the 
Department who appreciate the need to get timely and accurate 
information to our State and local partners as it is to them 
that on a couple of occasions--one occasion, we had made the 
decision, had talked about it with the President, and we 
weren't 15 feet away or 30 seconds away when someone came in 
and said, somebody just announced that we have gone to Code 
Orange. Now, if I could figure out how that happened, obviously 
that is not the way I choose to have my friends informed. Now, 
the flip side of it, the last time around, we were able to get 
some information out.
    So it is a process. We will work continuously with you, 
Madam Chairman, and our friends at the State and local level to 
improve. I share their frustration.
    Chairman Collins. Thank you.
    I would now like to switch to the issue of port security.
    Secretary Ridge. Yes.
    Chairman Collins. It is my understanding that the 
Department has yet to allocate about $170 million in port 
security funding that is distributed by the Transportation 
Security Administration. Could you tell us what the 
Department's plans are for distributing those funds? Some of us 
are concerned about the delay, given the tremendous need to 
improve port security.
    Secretary Ridge. That distribution schedule should be made 
available to me. I think Congress directed, I may be wrong 
since we have gotten several directions from Congress with 
regard to certain dollars, but I think we had to run the 
distribution plan through OMB. I think that process is done. I 
think you gave us a June 1, 2003 date to get it out, and we are 
certainly going to be in advance of that date.
    The $170 million is there. It hasn't been reprogrammed. It 
is going to be used for that purpose and the announcements will 
be made shortly.
    Chairman Collins. And finally, I just want to touch on the 
fire grant program. Of all the Federal grant programs that I 
have ever had experience with, none gets higher reviews from 
State and local officials than the fire grant program, and it 
seems that it is working well being administered by FEMA. The 
President's budget originally has proposed transferring that 
program to ODP. Is there a way to keep the program administered 
by FEMA, but with oversight and coordination by ODP so that we 
don't have a case of tinkering with something that is working 
extraordinarily well?
    Secretary Ridge. Madam Chairman, I believe that if we are 
looking to consolidate and create a one-stop shop, we need to 
bring the program into the State and local, and put ODP under 
State and local. I think it is a good program and I think I can 
assure the Chairman, as I have tried to assure the fire and 
emergency services, that change in the venue where the program 
is administered will not affect the program. They have their 
own way of going about peer reviewing the applications.
    One of the reasons that it is such a successful program 
that it was designed by fire fighters, reviewed by fire 
fighters, and then implemented by fire fighters. That is the 
reason about 97 percent of the grants, when you farm them out 
the door, are used and are used well.
    So I would hope that with your support, we could convince--
as long as we assured the fire services that we are not going 
to alter the program, but again, all those dollars that 
relate--and a lot of their acquisitions are dual-use. You can 
use a lot of this equipment whether responding to a natural 
event, a criminal event, or a terrorist act. So there is a lot 
of flexibility in that program. But my preference would be to 
have it administered under the State and local operation of the 
Department of Homeland Security with a proviso that we are not 
going to alter the program itself. As a matter of fact, we 
might bring some of those FEMA employees over.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Let me pick up there, also, on the fire 
grant program. When you say the program won't be altered, in 
terms of dollars available to that program, it is going to be, 
as I understand it now, part of the Office of Domestic 
Preparedness budget. Is that accurate?
    Secretary Ridge. That is correct, Senator. At least, that 
is the budget submission, hopefully.
    Senator Levin. You are right, and I do want to talk about 
budget submission. I don't know that I have the budget 
resolution numbers yet. We tried to get them but could not 
disaggregate them.
    But just in terms of dollars, the Office of Domestic 
Preparedness in 2003 had $3.28 billion, let us round it off to 
$3.3 billion in 2003. The fire grant program had over $750 
million. So together, they had about $4 billion-plus in 2003.
    Your 2004 request for the Office of Domestic Preparedness 
is $3.5 billion, roughly, which means together, you have a 
half-billion less dollars for first responders when you link 
together the Office of Domestic Preparedness and the fire grant 
program.
    So if our numbers are correct, even though you say the 
program won't change, it is going to be put under great 
pressure financially because if you are going to keep anywhere 
near the same amount of money for all the programs that you got 
in ODP last year, then you have a half-billion-dollar 
shortfall.
    Secretary Ridge. Senator, first of all, the history, if I 
recall correctly, of the fire grant program, in 2001, it was 
$100 million. In 2002, it was $200 million. I think we 
requested $350 million in 2003 and Congress more than doubled 
it to $750 million. So in terms of budget request, we are 
requesting $150 million more this year than we requested last 
year for the fire grant program.
    Senator Levin. I thought that there is no specific request 
for the fire grant program.
    Secretary Ridge. In the----
    Senator Levin. It is not in the administration request that 
we have.
    Secretary Ridge. Well, the ODP, you will notice there is 
$3.5 billion, but you notice--I have got to refresh my 
recollection of the budget document, but I think we indicated 
out of that $3.5, we wanted to make sure there was $500 million 
available to fire fighters, and it was our intention to use 
that $500 million to continue this program.
    Senator Levin. That would be, then, $250 million less than 
what we appropriated last year, is that correct?
    Secretary Ridge. Well, it would be $250 million less, but 
Senator, last year, my recollection--again, it is the budget 
process. We send up some priorities, and you have your 
priorities. At the end of the day, the budget reflects a 
compromise. But in fact, last year, assistance to the States 
and localities, if my numbers are correct, and this is across 
the board, our request was about $5 billion and we received 
less than that request from the Congress because you made 
decisions that were different than ours. That is just the way 
the process works.
    We wanted $350 million. We wanted to continue to see the 
growth of the fire grant program. That is why we took it to 
$350 million. You more than doubled it. We think it is 
appropriate from our perspective to ask for more money than we 
requested before and you may choose to----
    Senator Levin. But less than the authorized amount.
    Secretary Ridge. Less than you authorized, correct.
    Senator Levin. Let me just quickly, because I have just a 
few minutes, on the question of population, I just want to kind 
of point out to my colleagues that in your ODP program, on a 
per capita basis, the small States in population have done very 
well because of that minimum grant. I was giving my good 
friend, Tom Carper, this information on the way out. Delaware, 
for instance, per capita, got $6.60 from the ODP programs, 
whereas Pennsylvania got $1.50 per capita. They are doing very 
well. It is not necessarily reflective of the threat--maybe, 
and, by the way, small States could have greater threats than 
big States population-wise. I happen to agree with that. But 
this population distribution formula is not based on threat.
    Secretary Ridge. That is correct.
    Senator Levin. And when there is a minimum amount that goes 
to small States, I mean, you have got Wyoming that gets almost 
$10 per capita, and you have got New York that gets $1.40 per 
capita. Let me tell you, they start with a pretty good floor, 
the small States, which is not reflective of threat.
    So I tried to persuade him that small population States 
were doing probably better logically than they had a right to 
expect. I don't think I persuaded him, but I at least gave 
him----
    Secretary Ridge. You take information.
    Senator Levin. He is not one of the people who crosses your 
doorway who talks about less, either.
    My red light is on, but if I can take 2 more minutes, I 
want to get the leave of the Chair to do this, as well, and 
this has to do with the sharing and the analysis of 
intelligence information.
    We have still got a big problem here, obviously, as to 
whose responsibility and whose role it is to analyze all the 
intelligence that we get. Your answer before was that the 
difference between the Threat Integration Center and the 
Counter Terrorist Center is that more information will go to 
TTIC than went to CTC. They will both be analyzing a threat. I 
don't see how that is quite true, since FBI is located at both 
and local and State law enforcement is located at neither 
except through the FBI.
    So I think it would be helpful here, rather than trying to 
sort this out right now, which I don't think we can, is if you 
are able, obviously with CIA and with FBI and everybody else 
that is involved in this effort, to come up with a written 
statement of responsibility clearly laying out what information 
is going to what entity, obviously including your own entity 
inside your own agency, and who is responsible for what, but in 
writing, and I think that the Chairman was very supportive of 
this approach last time we had this meeting. I think it would 
be very helpful for the country----
    Secretary Ridge. I would----
    Senator Levin [continuing]. And this will focus 
accountability, which to me is the key issue.
    Secretary Ridge. Senator, I would be pleased to take on the 
task of coordinating that effort with my colleagues from the 
FBI and the CIA.
    Senator Levin. And I greatly appreciate that, and one last 
question. Two quick questions, if I can. Is your State and 
local government office in your agency able to provide to State 
and local governments all necessary information on all grant 
programs anywhere in your Department for which State and local 
governments are eligible?
    Secretary Ridge. Not yet, so the answer is no.
    Senator Levin. Is that your goal?
    Secretary Ridge. Yes, sir.
    Senator Levin. That is great. That is, I think, precisely 
what the Chair and so many of us really need in terms of that 
one stop, is that piece of your agency, you have all the 
information on all grants that your agency offers to State and 
local governments.
    Secretary Ridge. To your point, Senator, you suggested 
earlier there be a 1-800 number. There is one, but it only 
relates to ODP programs. We will make sure that there is the 
800 number, is adequate staffed, but also on the DHS website, 
that kind of information is available to the State and locals.
    Senator Levin. That is great. And then one issue which I 
briefly had a chance to chat with you about was the New York 
Times article relative to your former aides lobbying your 
Department, and I think it would be good to clear the air on 
that issue as to whether or not you are in the process, or 
maybe already have, some kind of guidelines relative to that 
issue, to ethics guidelines.
    Secretary Ridge. Senator, absolutely. One of the first 
responsibilities and undertakings of the new General Counsel, 
who we announced, is to take a look at our ethics laws, since 
we develop our own internal code to deal with potential 
conflicts. I was aware of the article. I might say that I have 
known those people for a long time, but they have also known me 
for a long time. If they learned one thing in our relationship, 
is that the personal side won't do them any good unless they 
have got the best product for this country. But I think it is 
very appropriate that the Department have its own set of 
internal guidelines relating to ethics and conflicts and we 
will.
    Senator Levin. And given the public interest in that issue, 
when you do complete those, if you could supply those to the 
Committee----
    Secretary Ridge. Absolutely. I would be pleased to.
    Senator Levin. I think I, and I am sure I speak for 
everybody around here, have great confidence in your ability to 
do exactly what you just described. You have set a very high 
ethical standard and we have great confidence that will be 
maintained through those guidelines, but also in just the day-
to-day messages that are sent forth from you personally, 
because we know you well enough to believe that deeply.
    Secretary Ridge. Yes, sir.
    Senator Levin. Thank you.
    Chairman Collins. Thank you, Senator Levin.
    Secretary Ridge, thank you so much for being with us today. 
I have several additional questions, but I am going to submit 
them to the record.\1\ range from questions about the Coast 
Guard to questions about the fact that we have some five 
different Federal grant programs for interoperability, to 
achieve that goal, and yet there seems to be no coordination 
among them. So there are many other issues that I want to 
explore through submitting questions to the record. But you 
have been very generous with your time today and I don't want 
to prolong your stay with the Committee further.
---------------------------------------------------------------------------
    \1\ Post-hearing questions for the Record submitted to the Hon. Tom 
Ridge appears in the Appendix on page 47.
---------------------------------------------------------------------------
    I hope that you will direct your staff to continue to work 
with us on the formula and other issues that we have covered 
today. I do intend to have an additional hearing on this issue 
on Thursday, May 15, and we are going to hear from State and 
local officials at that time. We then are going to sit down, 
draft the legislation which I hope we will mark up shortly 
thereafter. We need your help and assistance in doing so.
    Secretary Ridge. We will welcome that opportunity to work 
with you and the Committee, Madam Chairman. Thank you.
    Chairman Collins. Thank you, Mr. Secretary.
    The hearing record will remain open for 15 days for the 
submission of additional statements or questions. I want to 
thank the staff for their hard work on this issue, and this 
hearing is now adjourned.
    [Whereupon, at 12:12 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Thank you, Madame Chair, and thank you for holding these very 
valuable hearings on how we can reform and reengineer Federal homeland 
security programs to meet the needs of States, localities, and the 
first responders and preventers who protect us. I appreciate your 
bipartisan leadership and partnership. I also want to thank Secretary 
Ridge for being here.
    One of the Federal Government's first responsibilities under the 
Constitution is to provide for the common defense. In the face of the 
threat of terrorism, that means more than building a mighty Army, Navy, 
Air Force, Marines, and Coast Guard. It means strengthening the shared 
security of our fifty States and their cities and towns, as well as our 
territories.
    That takes money. To train and employ top-flight police officers, 
firefighters, and public health professionals. To buy new biometric 
security systems, install information sharing networks, and develop 
biological and chemical testing and treatment capabilities. To improve 
security around water plants and air ports. To revamp aging ports and 
protect chemical and nuclear plants. These tough jobs and countless 
others can't be accomplished with wishful thinking or a magic wand. And 
they cannot be accomplished by placing an unfair share of the burden on 
State and local governments who are already facing the worst fiscal 
crises in decades.
    One challenge we face is clearly to improve the process for 
distributing funds to State and local governments. We need to make the 
funds flow faster, cut unnecessary red tape, and make certain that 
programs are adequately coordinated so that we get the most out of the 
dollars once they are appropriated. I agree that there needs to be more 
flexibility in the use of Federal funds--and I am pleased to co-sponsor 
your legislation, Madam Chairman, to provide State and local officials 
with some the ability to move funds between accounts when it is 
necessary. I think we can certainly make a lot of improvements here. 
But this is more than just a red tape problem. It's also a red ink 
problem.
    We didn't spare a penny in fighting the war in Iraq. Our resources 
matched our rhetoric and our resolve. But here on the home front, 
there's a gap between our resources and our rhetoric and resolve. And 
the gap is about the size of Texas.
    That's unacceptable and it is unfair--and worst of all, it leaves 
our citizens in danger. States and localities are being spread thinner 
than ever at the moment they can least afford it. Their deficits are 
growing. Their homeland security and healthcare costs are rising. The 
economy remains sluggish. The fiscal straitjacket is getting tighter by 
the day.
    And in response, the Bush Administration offers no economic 
leadership to help get all of them and all of us out of the fix. In 
fact, it wants to pile on hundreds of billions of new tax cuts that 
won't work, which will only make things worse, while shortchanging 
homeland security and other needs.
    Asking States and localities to bear a greater share of their 
security burden now, of all times, is like asking a runner to complete 
a tough new course in record time with bricks strapped to his back.
    I have called for $16 billion in funding in the next fiscal year 
above and beyond the President's request for homeland security, much of 
which would go straight to States and localities--to provide our first 
responders, our public health networks and more with better troops, 
better training, and better technology.
    Let me give you one quick example of an urgent challenge facing 
many State and local governments that my plan would address: 
interoperable communications equipment. First responders must have the 
ability to talk to each other in an emergency. They don't need that 
equipment 10 years from now. They need it now. If police, firefighters, 
and emergency medical workers across jurisdictions can't talk to each 
other, they simply cannot react swiftly and effectively in a crisis 
that requires mutual support. We have been painfully aware of this for 
a long time. The problem first got major media attention over 20 years 
ago after an Air Florida plane crash. It reared its head again after 
the first bombing of the World Trade Center in 1993, and after the 
bombing of the Oklahoma City Federal building in 1995. And of course, 
firefighters lost their lives because of it on September 11, 2001.
    If ever a country could fix this once and for all, we're living in 
it. Think about the genius of our innovation economy. Our 
communications technology is so advanced that we could view a war half 
a world away, in real time, on the television. But just last week, fire 
officials from different jurisdictions right here in the D.C. 
metropolitan area told this Committee that their departments still 
could not communicate with one another if both responded to a regional 
emergency. The Public Safety Wireless Network--a project of the Justice 
and Treasury Departments--issued a report 2 weeks ago which stated that 
only 14 States have upgraded communications equipment enough so that 
public safety agencies can talk to each other during a terrorist attack 
or other emergency situation. The remaining States remain vulnerable 
during crises that require communications between police officers, fire 
fighters, paramedics, and other emergency personnel.
    This problem is still with us--because the Federal Government 
hasn't made it a priority. Too little leadership, vision, and money. We 
have basically left it up to States, and many of them need our help. 
When will the administration come to realize that loose change can't 
bring about real change?
    It's true that a long-range solution to this problem will take 
several years to implement. But I don't want to wait for the perfect 
fix. We have the technology to put working interoperable communications 
systems in place now. We have the way--if the Bush Administration finds 
the will.
    The Bush Administration also needs to find the will to support the 
SAFER Act, which will invest $7.5 billion over 7 years in communities 
across the country to hire new firefighters. Our fire departments are 
losing strength just as their responsibilities are increasing. That's a 
recipe for disaster.
    Finally, I urge the White House to wake up to what's happening in 
city halls and State capitals, and with police departments and State 
law enforcement agencies around the country as a result of the sagging 
economy and inadequate Federal support. The fiscal crisis facing State 
and local governments has forced one in four cities to layoff police 
officers in the past year, according to the National League of Cities. 
That is creating a double danger--threatening our homeland security and 
the fight against domestic crime at the same time. In 44 big American 
cities the picture is particularly stark. Since 2000, their police 
forces have been shrinking by 2 percent per year, and their crime rates 
have been going up by nearly 5 percent per year. Why, then, would the 
President's budget for next year eviscerate the COPS program and other 
key law enforcement grants? What sense does that make? That directly 
compromises the fight against terrorism by placing an ever growing 
burden on the backs of our police forces.
    Madame Chair, I hope we focus not only on how to modify these key 
homeland security grant programs to get resources out to our States and 
local communities more quickly. That's very important--but I urge us 
all to realize that getting the money out faster is just one part of 
the solution. Our States and localities need more support. More 
funding. And more leadership from the President on down. I hope we can 
work together to provide the brave, experienced, and hardworking men 
and women who protect us from terrorism the genuine assistance that 
they deserve and that our security demands.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T8245.001
    
    [GRAPHIC] [TIFF OMITTED] T8245.002
    
    [GRAPHIC] [TIFF OMITTED] T8245.003
    
    [GRAPHIC] [TIFF OMITTED] T8245.004
    
    [GRAPHIC] [TIFF OMITTED] T8245.005
    
    [GRAPHIC] [TIFF OMITTED] T8245.006
    
    [GRAPHIC] [TIFF OMITTED] T8245.007
    
    [GRAPHIC] [TIFF OMITTED] T8245.008
    
    [GRAPHIC] [TIFF OMITTED] T8245.009
    
    [GRAPHIC] [TIFF OMITTED] T8245.010
    
    [GRAPHIC] [TIFF OMITTED] T8245.011
    
    [GRAPHIC] [TIFF OMITTED] T8245.012
    
    [GRAPHIC] [TIFF OMITTED] T8245.013
    
    [GRAPHIC] [TIFF OMITTED] T8245.014
    
    [GRAPHIC] [TIFF OMITTED] T8245.015
    
    [GRAPHIC] [TIFF OMITTED] T8245.016
    
    [GRAPHIC] [TIFF OMITTED] T8245.017
    
    [GRAPHIC] [TIFF OMITTED] T8245.018
    
    [GRAPHIC] [TIFF OMITTED] T8245.019
    
    [GRAPHIC] [TIFF OMITTED] T8245.020
    
    [GRAPHIC] [TIFF OMITTED] T8245.021
    
    [GRAPHIC] [TIFF OMITTED] T8245.022
    
    [GRAPHIC] [TIFF OMITTED] T8245.023
    
    [GRAPHIC] [TIFF OMITTED] T8245.024
    
    [GRAPHIC] [TIFF OMITTED] T8245.025
    
    [GRAPHIC] [TIFF OMITTED] T8245.026
    
    [GRAPHIC] [TIFF OMITTED] T8245.027
    
    [GRAPHIC] [TIFF OMITTED] T8245.028
    
    [GRAPHIC] [TIFF OMITTED] T8245.029
    
    [GRAPHIC] [TIFF OMITTED] T8245.030
    
    [GRAPHIC] [TIFF OMITTED] T8245.031
    
    [GRAPHIC] [TIFF OMITTED] T8245.032
    
    [GRAPHIC] [TIFF OMITTED] T8245.033
    
    [GRAPHIC] [TIFF OMITTED] T8245.034
    
    [GRAPHIC] [TIFF OMITTED] T8245.035
    
    [GRAPHIC] [TIFF OMITTED] T8245.036
    
    [GRAPHIC] [TIFF OMITTED] T8245.037
    
    [GRAPHIC] [TIFF OMITTED] T8245.038
    
    [GRAPHIC] [TIFF OMITTED] T8245.039
    

</pre></body></html>
